<html>
<title> - FISCAL YEAR 2007 DRUG CONTROL BUDGET AND THE BYRNE GRANT, HIDTA, AND OTHER LAW ENFORCEMENT PROGRAMS: ARE WE JEOPARDIZING FEDERAL, STATE AND LOCAL COOPERATION?</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
 FISCAL YEAR 2007 DRUG CONTROL BUDGET AND THE BYRNE GRANT, HIDTA, AND 
OTHER LAW ENFORCEMENT PROGRAMS: ARE WE JEOPARDIZING FEDERAL, STATE AND 
                           LOCAL COOPERATION?

=======================================================================


                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 23, 2006

                               __________

                           Serial No. 109-208

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform



                    U.S. GOVERNMENT PRINTING OFFICE

32-440 PDF                  WASHINGTON : 2007
------------------------------------------------------------------
For sale by Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax:  (202) 512-2250. Mail:  Stop SSOP, 
Washington, DC 20402-0001



                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCHMIDT, Ohio                       (Independent)
------ ------

                      David Marin, Staff Director
                Lawrence Halloran, Deputy Staff Director
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
PATRICK T. McHenry, North Carolina   ELIJAH E. CUMMINGS, Maryland
DAN BURTON, Indiana                  BERNARD SANDERS, Vermont
JOHN L. MICA, Florida                DANNY K. DAVIS, Illinois
GIL GUTKNECHT, Minnesota             DIANE E. WATSON, California
STEVEN C. LaTOURETTE, Ohio           LINDA T. SANCHEZ, California
CHRIS CANNON, Utah                   C.A. DUTCH RUPPERSBERGER, Maryland
CANDICE S. MILLER, Michigan          MAJOR R. OWENS, New York
VIRGINIA FOXX, North Carolina        ELEANOR HOLMES NORTON, District of 
JEAN SCHMIDT, Ohio                       Columbia

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                     J. Marc Wheat, Staff Director
                 Jim Kaiser, Professional Staff Member
                           Malia Holst, Clerk
                     Tony Haywood, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 23, 2006.....................................     1
Statement of:
    Brooks, Ron, president, National Narcotics Officers' 
      Associations' Coalition; and Director, Northern California 
      HIDTA; Tom Carr, Director, Washington-Baltimore HIDTA; Tom 
      Donahue, Director, Chicago HIDTA; Abraham Azzam, Director, 
      Southeast Michigan HIDTA; and John Burke, Director, 
      Southwest Ohio Regional Drug Task Force [SWORD]............    60
        Azzam, Abraham...........................................    92
        Brooks, Ron..............................................    60
        Burke, John..............................................    97
        Carr, Tom................................................    75
        Donahue, Tom.............................................    81
    Schofield, Regina, Assistant Attorney General, Office of 
      Justice Programs [OJP], U.S. Department of Justice; Stuart 
      Nash, Associate Deputy Attorney General and Director, 
      Organized Crime Drug Enforcement Task Force [OCDETF], U.S. 
      Department of Justice; and Scott Burns, Deputy Director for 
      State and Local Affairs, Office of National Drug Control 
      Policy.....................................................    14
        Burns, Scott.............................................    38
        Nash, Stuart.............................................    29
        Schofield, Regina........................................    14
Letters, statements, etc., submitted for the record by:
    Azzam, Abraham, Director, Southeast Michigan HIDTA, prepared 
      statement of...............................................    94
    Brooks, Ron, president, National Narcotics Officers' 
      Associations' Coalition, prepared statement of.............    63
    Burke, John, Director, Southwest Ohio Regional Drug Task 
      Force [SWORD], prepared statement of.......................   100
    Burns, Scott, Deputy Director for State and Local Affairs, 
      Office of National Drug Control Policy, prepared statement 
      of.........................................................    39
    Carr, Tom, Director, Washington-Baltimore HIDTA, prepared 
      statement of...............................................    78
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............     7
    Donahue, Tom, Director, Chicago HIDTA; Abraham Azzam, 
      Director, Southeast Michigan HIDTA, prepared statement of..    84
    Nash, Stuart, Associate Deputy Attorney General and Director, 
      Organized Crime Drug Enforcement Task Force [OCDETF], U.S. 
      Department of Justice, prepared statement of...............    31
    Schofield, Regina, Assistant Attorney General, Office of 
      Justice Programs [OJP], U.S. Department of Justice, 
      prepared statement of......................................    17


 FISCAL YEAR 2007 DRUG CONTROL BUDGET AND THE BYRNE GRANT, HIDTA, AND 
OTHER LAW ENFORCEMENT PROGRAMS: ARE WE JEOPARDIZING FEDERAL, STATE AND 
                           LOCAL COOPERATION?

                              ----------                              


                         TUESDAY, MAY 23, 2006

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:03 p.m., in 
room 2154, Rayburn House Office Building, Hon. Mark E. Souder 
(chairman of the subcommittee) presiding.
    Present: Representatives Souder, Schmidt, Cummings, Davis, 
Watson, Ruppersberger, and Norton.
    Staff present: Jim Kaiser, professional staff member and 
counsel; Malia Holst, clerk; Tony Haywood, minority counsel; 
and Jean Gosa, minority assistant clerk.
    Mr. Souder. The subcommittee will come to order. Good 
afternoon. I thank you all for coming. This hearing is part of 
a series of oversight hearings regarding the President's budget 
proposals for drug control programs and will focus on the 
President's proposed changes in this area.
    The administration released its budget proposal for all 
Federal programs for fiscal year 2007 in February. One of the 
most significant policies reflected in that budget is a 
proposal to cut most Federal support for State and local drug 
enforcement. Among other things, the administration has 
proposed terminating the State formula grants portion of the 
Byrne grants to State and local law enforcement; reducing 
funding for the HIDTA program and transferring remaining funds 
to the Justice Department's Organized Crime Drug Enforcement 
Task Force [OCDETF], program; cutting the Meth Hot Spots 
program administered by the Justice Department's Community 
Oriented Policing Services [COPS], office by more than 30 
percent; and reducing funding for the Counterdrug Technology 
Assessment Center [CTAC], by 70 percent, while completely 
eliminating the Technology Transfer Program.
    The subcommittee shares some of the administration's 
concerns about the potential of excessive or misdirected 
Federal support to local agencies. Congress must be careful not 
to make State and local agencies too dependent on Federal 
dollars, as these agencies must remain under the control of and 
responsive to the needs of State and local taxpayers. State and 
local governments have a responsibility to fund their own 
counternarcotics efforts as well.
    Yet it does not follow that all Federal assistance to State 
and local agencies lacks national impact. State and local law 
enforcement personnel are fighting on the front lines in the 
struggle to stop drug trafficking. They make over 90 percent of 
drug-related arrests and seizures and have a wealth of 
intelligence that could be very valuable if shared with Federal 
authorities. Federal assistance to these agencies can have a 
major positive impact by involving them in the national goals 
of enforcement, treatment and prevention.
    The goal of these proposals was, is and always should be to 
maximize the efforts of Federal and State and local law 
enforcement narcotics efforts through mutual cooperation. It 
was not to have one dominate the other. We hope at this hearing 
to address these broader issues and to review the 
administration's specific proposals for certain key programs.
    First among them is the HIDTA program. This program was 
created in 1990 to help reduce the Nation's overall supply of 
illegal drugs by bringing them together, Federal, State and 
local law enforcement agencies in the most significant regions, 
each referred to as a HIDTA, where drugs are created, smuggled 
or distributed. Under current law the Director of ONDCP may 
designate certain areas as HIDTAs, making them eligible for 
Federal funding. That funding is administered locally by an 
executive board made up of equal representation of Federal 
agencies on one side and State and local agencies on the other.
    As the program's budget has grown from only $25 million at 
its inception to $227 million in fiscal year 2006, the number 
of designated regions has grown as well. From the initial 5 
HIDTAs in 1990, the program expanded to 28 HIDTAs, and the 
pressure remains in Congress to create even more of them. By 
the way, one of the major reasons that pressure occurred is 
because of the administration's lack of response on meth. And 
most of the new HIDTAs had to deal with meth, and what looked 
like an attempt by Congress to expand the number of HIDTAs was 
actually because of the lack of response and how to address the 
meth problem.
    The administration has come up with two proposals: One, to 
cut the program's budget from the fiscal year 2006 enacted 
level of $227 million to $208 million; two, to transfer the 
HIDTA program from ONDCP to the Organized Crime Drug 
Enforcement Task Force [OCDETF], a Department of Justice 
program. If enacted, this latter proposal would effectively 
terminate the current HIDTA program.
    First, the program cannot and should not be transferred in 
whole or in part to OCDETF without authorizing legislation. 
Such legislation is needed to define the goals of the program 
and the means of its implementation.
    Second, the subcommittee is troubled by the serious 
disruption of drug enforcement activities in the individual 
HIDTAs that this sweeping proposal would create, at least in 
the short term. It would be most inadvisable for the Federal 
Government to take action that drives away State and local 
collaboration. And as we heard last year, they fully intend to 
completely withdraw.
    Today's hearing will also review the CTAC program, which 
was established in 1990 to oversee and coordinate the Federal 
Government's antidrug research and development. The 
administration is requesting only $9.6 million for the CTAC 
program, a steep decline from the $30 million requested for 
fiscal year 2006 and the $29.7 million appropriated by 
Congress. The proposed decreases would cut the research program 
from $14 million to $9.6 million, while completely eliminating 
the Technology Transfer Program. The program is certainly in 
need of direction and oversight. ONDCP has not yet demonstrated 
that the Technology Transfer Program supports national goals 
reducing overall drug trafficking and improving interagency 
communication and cooperation. Such dramatic cuts, however, do 
not amount to reform. As with HIDTA, the subcommittee intends 
to review the CTAC program and its future as it continues its 
oversight of ONDCP.
    The subcommittee has concerns about the proposed reduction 
in the COPS Meth Hot Spots dedicated to law enforcement 
activities against methamphetamine trafficking. Methamphetamine 
abuse has ravaged communities across the United States and put 
severe strains on State and local law enforcement agencies 
forced to find clandestine drug labs, clean up the 
environmental damage they create, and arrest the drug 
traffickers who operate them. To assist these overburdened 
agencies, Congress approved $52.6 million in fiscal year 2005 
and $63.6 million in fiscal year 2006, once again because the 
administration wasn't taking any action.
    The administration is requesting only $40.1 million for 
fiscal year 2007, a cut of more than 30 percent from 
appropriated funds for 2006. This would greatly reduce the 
ability of the State and local law enforcement agencies to help 
their Federal partners in reducing methamphetamine abuse, 
particularly given the proposed overall reduction in State and 
local law enforcement assistance grants.
    The subcommittee also has serious concerns about the 
administration proposal to terminate the State grants component 
of the Edward Byrne Memorial Justice Assistance Grants 
programs. Congress already complied with the administration's 
request to consolidate previously separate grants programs into 
the single Byrne grants program. The administration now 
proposes to eliminate $416.5 million that Congress appropriated 
last year for the Byrne grants and to restrict Federal aid to a 
series of enumerated grants, most of which are previously 
existing programs under a Justice assistance account. In 
practice, this will sharply limit the amount of money available 
to help State and local agencies.
    We have quite a mix of witnesses with us today, and we 
would especially like to welcome all the representatives of 
Federal, State and local law enforcement who are joining us. 
From the Department of Justice, on our first panel we will hear 
from Regina Schofield, Assistant Attorney General at the Office 
of Justice Programs, who will discuss the Byrne grants, COPS 
and other similar Justice assistance programs; Stuart Nash, 
Associate Deputy Attorney General and Director of OCDETF, who 
will discuss the proposed transfer and restructuring of the 
HIDTA program; also hear from Scott Burns, ONDCP Deputy 
Director for State and Local Affairs.
    We appreciate all of the State and local representatives 
who are with us on the second panel. Coming in today we will 
again welcome Ron Brooks, president of the National Narcotics 
Officers' Associations' Coalition and Director of the Northern 
California HIDTA; Tom Carr, the Director of the Washington-
Baltimore HIDTA; Tom Donahue, Director of the Chicago HIDTA; 
Abraham Azzam, Director of the Southeast Michigan HIDTA; and 
John Burke, Director of the Southwest Ohio Regional Drug Task 
Force, SWORD.
    Before we get started I would also like to note that 
congratulations are in order for one of our witnesses. We got 
word last week that Tom Carr's wife recently gave birth to a 
baby boy, Taggart Hunter Carr. That is wonderful news, and we 
are all happy for you and your family.
    Again, we thank you all for coming from so many places 
across the country to be here today. We look forward to your 
testimony.
    Mr. Cummings.
    Mr. Cummings. Mr. Chairman, I, too, want to congratulate my 
good friend Tom Carr. And you know, Tom, I think it was Frost 
said--Robert Frost says that every time a child is born, it is 
God's affirmation that the world should continue.
    Mr. Chairman, I want to thank you for holding today's very 
important hearing on the President's budget request for several 
vital law enforcement programs that contribute to the National 
Drug Control Strategy.
    A policy brief prepared last year by Carnevale Associates 
offered the following analysis of the President's fiscal year 
2006 drug budget, and it said, the administration's proposed 
budget of $12.4 billion for drug control for fiscal year 2006 
portends major changes in Federal drug control policy. The 
request increases funding for overseas programs to curb the 
flow of drug from abroad and enhances border control. It also 
proposes a net decline in funding for demand reduction 
programs, reduces or eliminates certain State and local law 
enforcement programs, and shifts more responsibility for local 
drug control to its State and local government partners.
    To its credit, the Congress largely rejected the approach 
outlined in the President's budget last year, but the 
administration proposes more of the same for fiscal year 2007. 
The President's fiscal year 2007 drug budget would further 
shift the emphasis from demand reduction to supply reduction, 
and it repeats several proposals that would sharply undermine 
State and local drug enforcement efforts and Federal-State-
local partnerships.
    The fiscal year 2007 request devotes 35.5 percent to demand 
reduction and 64.5 percent to supply reduction. By comparison, 
the Federal Government spent 47 percent and 53 percent for 
these functions respectively in 2001. And as you know, Mr. 
Chairman, I have been a vocal advocate for expanding access to 
drug treatment because we have proof that it works not just in 
reducing and curtailing drug use, but in decreasing all of the 
negative consequences of drug abuse and the drug trade, 
including violent crime. The President's budget neglects 
prevention and treatment in favor of supply reduction programs 
that have yet to demonstrate a sustained impact on the 
availability of drugs on U.S. streets.
    Even within the category of supply reduction, there has 
been a marked shift in the proportion of funds diverted to 
efforts beyond U.S. borders as compared to programs that 
support effective cooperation among Federal, State and local 
law enforcement within our borders. Overall the request would 
increase funding for interdiction and international supply 
reduction programs by 7.1 percent and 12.6 percent 
respectively, while support for domestic law enforcement would 
increase by just 1.6 percent.
    One of my major concerns involves the President's proposal 
for the High Intensity Drug Trafficking Areas program presently 
administered by the Office of National Drug Control Policy. I 
am most disappointed that the President's fiscal year 2007 
budget restates last year's proposal to move the HIDTA program 
out of ONDCP to the Justice Department under the control of the 
Organized Crime and Drug Enforcement Task Force program. I 
thought we sent a very clear message last year, and it seems as 
if we have to continue to send that message.
    Whereas the fiscal year 2006 budget proposed to cut HIDTA 
funding by $128 million, more than half, by the way, the fiscal 
year 2007 proposal is a relatively modest $16.4 million 
decrease. Still this would allow for level funding for all 
HIDTAs, while eliminating discretionary funds to respond to 
urgent threats. However, there has been no indication from 
Justice concerning how it plans to allocate funding among the 
HIDTAs. In fact, we have yet to hear from Justice that moving 
HIDTA there would be wise or even desirable from its point of 
view.
    I remain troubled that the 2006 strategy, while stating 
that the intent of the proposed move is to refocus the program, 
provides no explanation of how this change will make the 
program more effective and efficient. To date there has been no 
assurance from ONDCP or Justice that the HIDTA program, if 
moved, would retain the unique characteristics that enable it 
to foster effective, peer-level partnerships among 
participating Federal, State and local agencies.
    In 2005, a bipartisan coalition of members joined the 
National HIDTA Directors Association in strongly opposing last 
year's proposal, and this year's proposal has already received 
a similar response from those who know the program best.
    I am glad that we will hear today from several HIDTA 
Directors including Mr. Tom Carr, who supervises the Baltimore-
Washington, or Washington-Baltimore, HIDTA, an organization 
that makes such a vital contribution to drug enforcement 
efforts in and beyond my congressional district in Maryland, 
and one who--which has done an outstanding job, and one that, 
like many other HIDTAs, have brought State, local, and Federal 
officials together to effectively and efficiently fight that 
drug trafficking.
    Apart from HIDTA, the President proposes to cut ONDCP's 
funding of the Counter Drug Technology Assessment Center by 
$20.1 million. This 68 percent decrease from fiscal year 2007 
appropriated amounts reflects the proposed elimination of 
CTAC's Technology Transfer Program, which provides State and 
local law enforcement agencies with valuable equipment and 
training for deployment and operations.
    The President's request also repeats last year's proposal 
to eliminate or reduce funding for key drug control programs 
within the Department of Justice that support Federal, State 
and local cooperation. The request proposes to eliminate the 
Edward Byrne Memorial Justice Assistance Grant program, which 
allows States and local governments to support a broad range of 
activities, to prevent and control crime, and to improve the 
criminal justice system.
    The President proposes a more than one-third reduction in 
funding for the COPS Meth Hot Spots program, which allocates 
money for problem-oriented policing to combat the use and 
distribution of meth labs, including child endangerment 
programs, enforcement, drug courts, training and treatment.
    Like last year, the administration proposes to reduce 
funding for the Drug Enforcement Administration Mobile 
Enforcement Teams, through which DEA provides assistance to 
State and local law enforcement to address small toxic labs 
operating throughout the country, and to eliminate the DEA's 
demand reduction program. Funding for the National Alliance for 
Model State Drug Laws also would be eliminated under the 
President's request.
    Mr. Chairman, in my view, the President's plan to eliminate 
or scale back these vital programs raises serious questions 
about the depth of the administration's commitment to reducing 
domestic demand for illegal drugs and supporting State and 
local drug enforcement efforts. Open to question is how 
vigorously ONDCP, as the primary shaper of Federal drug control 
policy, has asserted its budget certification authority to 
defend and support programs that advance all three pillars of 
the National Drug Control Strategy.
    And finally, today's hearing provides an opportunity to 
question administration officials and some of the Nation's most 
dedicated and knowledgeable law enforcement professionals 
concerning the policy decisions and priorities reflected in the 
President's fiscal year 2007 drug control budget about how data 
and performance effectiveness measures informed those decisions 
and priorities, and about whether the President's fiscal year 
2007 budget adequately supports the President's three-pillared 
strategy.
    And with that, Mr. Chairman, I thank all of our speakers 
and guests for being with us today, and I look forward to their 
testimony. With that I yield back.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]
[GRAPHIC] [TIFF OMITTED] 32440.001

[GRAPHIC] [TIFF OMITTED] 32440.002

[GRAPHIC] [TIFF OMITTED] 32440.003

[GRAPHIC] [TIFF OMITTED] 32440.004

[GRAPHIC] [TIFF OMITTED] 32440.005

    Mr. Souder. Ms. Watson.
    Ms. Watson. I thank you, Mr. Chairman, and thank you for 
holding this most important hearing on funding one of the key 
components of our Nation's fight against crime and drugs.
    Adequate funding for essential programs within the 
Department of Justice is part of the many steps this Congress 
must take in helping eliminate danger on our streets. Drugs are 
the root cause of a significant amount of crime nationwide. 
Funding efforts to eliminate drug trafficking and use should be 
at the forefront of our national agenda.
    Unfortunately, the President's budget for fiscal year 2007 
eliminates many important youth violence and gang prevention 
programs. Among the casualties are funding for the Byrne grants 
intended to help State and local law enforcement control 
violent and drug-related crimes, funding for community-oriented 
policing programs that provide temporary grants to local police 
departments to hire additional officers, funding for juvenile 
accountability block grants intended to help States and 
localities improve their juvenile justice system, and funding 
for programs designed to reintegrate youthful offenders into 
their communities.
    This is dangerously short-sighted. How are we to address 
the growing threat of youth and gang violence when the 
President's budget removes most of the Federal Government 
spending and drug prevention programs? In my own county, Los 
Angeles County, the use of semiautomatic handguns in gang-
related killings has quadrupled. And a National League of 
Cities survey concluded that 72 percent of school violence is 
attributed to gang activity.
    And I have a gun shop right in the middle of my district, 
in walking distance from a local middle school, that is out of 
compliance, and they just received a permit to continue to sell 
the guns. They are operating there legally, and they have been 
there 15 years. And I am very, very concerned about that 
because where you have guns and ammunition, you have drugs, and 
that will start a decline in the community. You go away 10 to 
20 years, and that community will be annihilated.
    So in its most disturbing manifestation, the reach of gangs 
and crime has just not become national, but international in 
scope. We all must be on guard and concerned by these 
disturbing trends in crime and drugs.
    And so I want to thank again the Chair, and I want to thank 
those sitting at the table for your willingness to come and 
testify in order for us, all of us, to understand the dire need 
for the primary tools of our drug control and crime prevention 
policy to be adequately funded. This subcommittee will do 
everything in its power, I know, to help you get, and those 
others out there, the proper funding to fight the rampant crime 
problems in these United States. So I want you to please 
continue your diligent efforts to remove these detrimental 
activities from our communities.
    And I yield back and, again, thank you, Mr. Chair.
    Mr. Souder. Mr. Ruppersberger.
    Mr. Ruppersberger. Mr. Chairman, again, thank you and Mr. 
Cummings. I wish more people in Congress would focus on this 
drug narcotics issue, and I am sure you do, too. Thank you for 
your leadership.
    I agree with the chairman that the Federal dollars must not 
be wasted and that the Federal dollars that are used for these 
purposes are used to supplement, not replace, State and local 
funding sources. Just like last year, we are here once again 
discussing the administration's plan to cut or eliminate most 
Federal support for State and local enforcement efforts.
    Now, I also believe that for the programs that have 
demonstrated their worth, shown to be effective and serve local 
and national priorities, these programs should be continued. In 
order to address deficiencies in any of these programs, 
redesigning or reforming the programs should be the first 
option before cutting or dismantling. In hearing after hearing 
we have heard from HIDTA personnel that the program is 
successful, and that drastically reducing funds for this 
program and moving it to the Department of Justice will do 
irrevocable damage to State and local law enforcement 
counterdrug efforts.
    I am still not convinced by the argument that cutting HIDTA 
funding and moving what is left to Department of Justice will 
be better at keeping drugs off the street than we are doing 
right now. And again, like last year, the administration wished 
to cut all the funding for the Byrne grants programs. These 
grants are vital to State and local law enforcement agencies. 
The drug war will always be fought at the local level on our 
city streets, in suburban neighborhoods and in rural 
communities. This grant program encourages cooperation at all 
levels and allows communities to develop unique solutions for 
their own unique set of problems.
    Now, in my old days, when I was a lot younger, I was an 
investigative prosecutor. I did a lot of drug work, and we 
found to be most effective when we could have Federal, State 
and local working as a team and having the sources that we 
worked that, getting the money from the Federal Government, 
because we found in most situations that it just wasn't within 
one jurisdiction. It was throughout the country. And I think it 
is a big mistake.
    Another issue, and I am very concerned with and I will say 
it here, it might not be as relevant, is the issue of 
terrorism. We have to deal with the issue of terrorism. I am on 
the Intelligence Committee. I probably know as much as anybody 
about how serious that is. But we are taking moneys and 
resources away from drugs, and it is going to hurt us. You 
know, 85 percent of all violent crime is drug-related, and we 
have to keep our focus and keep our eye on the ball and keep 
the resources coming to the State and local if we are going to 
be effective in our battle against drugs.
    So, Mr. Chairman, thank you for the hearing, and I yield 
back the balance of my time. Before I do that, though, before I 
yield, I do want to acknowledge Tom Carr, Director of HIDTA 
Washington-Baltimore. I have to go to another hearing now so I 
won't be able to hear his testimony, but we acknowledge our 
locals. Thank you.
    Mr. Souder. I thank the gentleman for his tremendous 
interest in this subject.
    I ask unanimous consent that all Members have 5 legislative 
days to submit written statements and questions for the hearing 
record, and that any answers to written questions provided by 
the witnesses also be included in the record. Without 
objection, so ordered.
    I also ask unanimous consent that all exhibits, documents 
and other materials referred to by the Members and the 
witnesses may be included in the hearing record, and that all 
Members be permitted to revise and extend their remarks. 
Without objection, it is so ordered.
    Our first panel is composed of the Honorable Regina 
Schofield, Assistant Attorney General, Office of Justice 
Programs at the U.S. Department of Justice; the Honorable 
Stuart Nash, Associate Deputy Attorney General and Director of 
the Organized Crime Drug Enforcement Task Force at the U.S. 
Department of Justice; and the Honorable Scott Burns, Deputy 
Director of State and Local Affairs at Office of National Drug 
Control Policy.
    As an oversight committee it is our standard practice to 
ask witnesses to testify under oath. So if you would stand and 
raise your right hands.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
responded in the affirmative.
    I thank you for coming, and we will start with Ms. 
Schofield.

  STATEMENTS OF REGINA SCHOFIELD, ASSISTANT ATTORNEY GENERAL, 
 OFFICE OF JUSTICE PROGRAMS [OJP], U.S. DEPARTMENT OF JUSTICE; 
 STUART NASH, ASSOCIATE DEPUTY ATTORNEY GENERAL AND DIRECTOR, 
  ORGANIZED CRIME DRUG ENFORCEMENT TASK FORCE [OCDETF], U.S. 
  DEPARTMENT OF JUSTICE; AND SCOTT BURNS, DEPUTY DIRECTOR FOR 
STATE AND LOCAL AFFAIRS, OFFICE OF NATIONAL DRUG CONTROL POLICY

                 STATEMENT OF REGINA SCHOFIELD

    Ms. Schofield. Thank you.
    Mr. Chairman, Mr. Cummings and Ms. Watson, I am Regina 
Schofield, the Assistant Attorney General for the Office of 
Justice Programs. I am pleased to be here this afternoon on 
behalf of the Attorney General, the U.S. Department of Justice, 
and especially the Office of Justice Programs to discuss the 
President's fiscal year 2007 drug control budget and his larger 
budget request.
    Through my work at the Department of Health and Human 
Services, I learned of the devastating impact of substance 
abuse on our children, family and communities. My time at OJP 
has reinforced that understanding. I want to assure the 
subcommittee that I share its commitment to eliminate illegal 
drugs and drug abuse.
    I realize that much of the subcommittee's focus today is on 
the Edward Byrne Memorial Justice Assistance Grant program 
[JAG]. As you're aware the President's budget does not include 
funding for JAG, consistent with our fiscal year 2006 request. 
I recognize the concern that this raises among Members of 
Congress, law enforcement and other interested parties. The 
decision to eliminate JAG was not made lightly. Given the 
current fiscal limitations we are all facing and the need to 
focus our resources on combating terrorism, the choice we made, 
while difficult, was necessary.
    I ask that the JAG decision be looked at with the 
understanding that the program represents less than 1 percent 
of the funding spent by State and local governments on law 
enforcement. The decision should also be examined in the 
context of our overall budget request.
    We have asked for over $1.2 billion in discretionary grant 
assistance to State and local governments, including $66.6 
million to strengthen our communities through programs 
providing services such as drug treatment. We would target 
those resources toward programs where we believe they can have 
the greatest impact.
    We have requested $69.1 million for our Drug Court 
Discretionary Grant program, which is a $59.3 million increase 
over the fiscal year 2006 level. Drug courts use the power of 
the court to effectively integrate substance abuse treatment, 
mandatory drug testing, sanctions and incentives, and 
transitional services for nonviolent substance-abusing 
offenders. Our fiscal year 2007 request would allow us to 
provide funding for more than 100 drug courts, which include 
starting new drug courts and improving existing ones. Our 
request will also provide training for hundreds more drug 
courts.
    I have included many other examples from our budget request 
in my written testimony, which I ask be submitted for the 
record. In our budget request, we have also targeted 
initiatives that allow us to work together with State and local 
law enforcement to make the most of our limited resources, not 
just by working harder, but by working smarter. Our Regional 
Information-Sharing Systems program [RISS], helps local police 
working with State and Federal partners identify and share 
criminal intelligence. We currently have more than 7,300 member 
RISS agencies nationwide.
    The training and technical assistance we provide is another 
way to make an impact with limited dollars. Training and 
technical assistance builds knowledge and expands capacity in 
the field, but it can also be the key to helping States and 
localities leverage or even save limited training dollars. This 
year OJP will develop a National Drug Endangered Children 
Resource Center, which will provide critical information to the 
Federal Government, States and local communities on how to best 
help children that have been hurt by drugs, including 
methamphetamine.
    We also support the Center for Task Force Training, or 
CenTF, which provides training for law enforcement on drug task 
force management and investigative techniques. In response to 
law enforcement demand, we more than tripled the number of meth 
training courses offered nationwide during 2004 and 2005 for a 
total of up to 12 courses. Working together with State and 
local law enforcement, we have developed performance measures 
to gauge effectiveness of drug task forces. This was done 
through a partnership with the National Narcotics Officers' 
Associations' Coalition. The new performance measures will not 
only help State and local law enforcement evaluate these task 
forces, but also help us to plan and operate them more 
effectively.
    The Coalition is one of many law enforcement organizations 
with which we have a close relationship. We are also in 
constant contact with State and local law enforcement agencies 
so that we can help them do their jobs more effectively.
    The administration, and specifically the Department of 
Justice, share a commitment with our State and local law 
enforcement partners to making America's communities safe and 
secure. Both our current activities and our fiscal year 2007 
proposed budget reflect these priorities. Thank you again for 
the opportunity to be here today, and I would welcome the 
opportunity to answer any questions.
    Mr. Souder. Thank you.
    [The prepared statement of Ms. Schofield follows:]
    [GRAPHIC] [TIFF OMITTED] 32440.006
    
    [GRAPHIC] [TIFF OMITTED] 32440.007
    
    [GRAPHIC] [TIFF OMITTED] 32440.008
    
    [GRAPHIC] [TIFF OMITTED] 32440.009
    
    [GRAPHIC] [TIFF OMITTED] 32440.010
    
    [GRAPHIC] [TIFF OMITTED] 32440.011
    
    [GRAPHIC] [TIFF OMITTED] 32440.012
    
    [GRAPHIC] [TIFF OMITTED] 32440.013
    
    [GRAPHIC] [TIFF OMITTED] 32440.014
    
    [GRAPHIC] [TIFF OMITTED] 32440.015
    
    [GRAPHIC] [TIFF OMITTED] 32440.016
    
    [GRAPHIC] [TIFF OMITTED] 32440.017
    
    Mr. Souder. Mr. Nash.

                    STATEMENT OF STUART NASH

    Mr. Nash. Chairman Souder, Ranking Member Cummings and 
distinguished Members of Congress, I am pleased to appear 
before you today.
    Before I proceed, I want to thank this subcommittee for its 
strong commitment to oversight of the Nation's drug enforcement 
efforts.
    As you know, the President's budget request proposes 
transferring the HIDTA program from the Office of National Drug 
Control Policy to the Department of Justice. The Department of 
Justice views the President's proposal as a tremendous 
opportunity for DOJ and HIDTA to forge an enduring and 
productive partnership.
    In our view, HIDTA's ability to marshal the skills and 
intelligence of Federal, State and local law enforcement 
agencies and to coordinate those efforts in a manner conducive 
to the law enforcement landscape in particular areas of the 
country has led to important successes in the drug enforcement 
field. The transfer of HIDTA to the Department of Justice would 
allow both HIDTA and DOJ to pursue drug enforcement more 
effectively. The transfer would permit more comprehensive 
coordination, enhanced deconfliction, more extensive 
intelligence sharing, and more effective strategic planning 
between HIDTA initiatives and the drug enforcement efforts 
being pursued by the Department of Justice.
    Several misconceptions have arisen as to what the 
President's proposal entails. First and foremost, the 
President's proposal is not a proposal to merge the HIDTA 
program with OCDETF. OCDETF, as you know, is the Organized 
Crime Drug Enforcement Task Force program, and it is the 
centerpiece of DOJ's drug control efforts. OCDETF is charged 
with coordinating all the elements of the Federal Government 
involved in drug enforcement, including DOJ, the Department of 
Treasury, and the Department of Homeland Security in concerted 
efforts against the largest national and international drug-
trafficking and money-laundering organizations.
    If the HIDTA program were to be transferred to DOJ, DOJ has 
committed that HIDTA would be administered as a freestanding 
program completely independent of OCDETF. In this connection, I 
think it is necessary to explain my own status as a witness 
here today. I am Director of the OCDETF program; however, I am 
also Associate Deputy Attorney General serving on the Deputy 
Attorney General's staff, and advising him on all matters 
related to counternarcotics and asset forfeiture policy. It is 
in that second role that I am here testifying today, on behalf 
of Deputy Attorney General Paul McNulty as his counternarcotics 
advisor. The fact that I also happen to be the Director of 
OCDETF should not be taken as any kind of signal that, contrary 
to our specific representations, OCDETF would somehow be 
involved in DOJ's management of the HIDTA program.
    Another misconception regarding the President's proposal 
is, if granted management of HIDTA, that the Department of 
Justice would impose rigid centralized controls over the 
program, depriving the individual HIDTAs of their ability to 
tailor their operations to the needs of their specific 
geographic areas. DOJ recognizes that HIDTA is specifically 
designed to allow State and local law enforcement to 
participate equally with Federal agencies in defining the local 
drug threats and to craft localized solutions to combat those 
threats. Decentralized decisionmaking is woven into the very 
makeup of the HIDTA program.
    Finally, there is a misconception that DOJ would use its 
stewardship of the HIDTA program to unfairly direct HIDTA 
assets to benefit drug enforcement activities pursued by the 
DOJ components to the exclusion of the State and locals. 
However, DOJ has committed to the bedrock principle that 
Federal agencies on the one hand, and State and local agencies 
on the other, should have an equal voice in managing their 
individual HIDTAs. DOJ appreciates as clearly as anyone how 
counterproductive it would be for us to alienate our State and 
local partners, or, for that matter, our non-Justice Federal 
partners, thereby losing their invaluable contributions to the 
shared enterprise of drug enforcement.
    Mr. Chairman, as you were aware, in February Mr. McNulty 
came to Capitol Hill to meet with you on this issue. Later that 
month he met and spoke with the HIDTA Directors at their annual 
conference outlining his commitment to the HIDTA program. Mr. 
McNulty followed this meeting with an individual letter to each 
of the HIDTA Directors requesting any input they might have on 
this topic. And he and members of his staff, including me, have 
continued meeting with HIDTA leadership, State and local law 
enforcement and congressional staff to get their views on this 
issue.
    Based on our initial meetings, the Department has developed 
certain fundamental principles that will guide DOJ's 
administration of the HIDTA program. Among these are HIDTA will 
remain as a separate program within the Department with its own 
budget and an independent management structure. HIDTA executive 
boards will retain equal representation between Federal 
agencies and State and local law enforcement. Assuming passage 
of the President's fiscal year 2007 budget request, DOJ will 
retain all of the existing 28 HIDTAs. Each HIDTA executive 
board will retain discretion to make its own funding decisions 
regarding the resources allocated to it.
    In closing, I want to emphasize that the Department 
believes that the HIDTA program is a valuable tool in our 
Nation's efforts to investigate and prosecute drug traffickers. 
The Department will continue to strongly support the HIDTA 
program and will work with its leadership to develop new 
initiatives to vigorously enforce our Nation's drug laws.
    Thank you for your attention to this important issue and 
the opportunity to testify here today, and I am happy to answer 
any questions that you might have.
    [The prepared statement of Mr. Nash follows:]
    [GRAPHIC] [TIFF OMITTED] 32440.018
    
    [GRAPHIC] [TIFF OMITTED] 32440.019
    
    [GRAPHIC] [TIFF OMITTED] 32440.020
    
    [GRAPHIC] [TIFF OMITTED] 32440.021
    
    [GRAPHIC] [TIFF OMITTED] 32440.022
    
    [GRAPHIC] [TIFF OMITTED] 32440.023
    
    [GRAPHIC] [TIFF OMITTED] 32440.024
    
    Mr. Souder. Mr. Burns.

                    STATEMENT OF SCOTT BURNS

    Mr. Burns. Chairman Souder, Ranking Member Cummings, 
distinguished members of the subcommittee, thank you for the 
opportunity to appear before you today in support of the 
President's fiscal year 2007 national drug control budget. I 
want to thank the subcommittee for its strong bipartisan 
commitment to our shared national goal of reducing drug use in 
America, especially among our youth.
    You have inquired about the fact that for 2007, the budget 
proposes transferring the High Intensity Drug Trafficking Area 
[HIDTA], program currently operated by the Office of National 
Drug Control Policy to the Department of Justice. The 
administration's basis for this transfer is to ensure better 
coordination with the Organized Crime and Drug Enforcement Task 
Force and the Department of Justice's many other drug 
enforcement efforts. That's where DEA is. That's where the FBI 
is, that's where the U.S. marshals and Alcohol, Tobacco and 
Firearms and the National Drug Intelligence Center, NDIC, are.
    The administration believes that the Department of 
Justice's management and oversight of the program will ensure 
that we are fully utilizing all resources and programs to their 
fullest potential to achieve the common goal of market 
disruption of illegal drugs. The administration will preserve 
important elements of the programs such as intelligence sharing 
and fostering multiagency and multijurisdictional law 
enforcement coordination among Federal, State and local 
agencies and officials.
    The Department of Justice has ensured it will make certain 
that the HIDTA program plays a key role in our Nation's drug 
enforcement efforts, particularly those involving coordination 
with State and local departments, and do that in a manner that 
complements the activities of other existing programs and of 
individual agencies involved in drug enforcement.
    The 2007 budget proposes $207.6 million for HIDTA as a 
distinct activity within the Department of Justice. And as was 
mentioned earlier by you, Mr. Chairman, and Ranking Member 
Cummings, that's level funding.
    I would concur with the Department of Justice statement by 
Mr. Nash and the written testimony that the HIDTA program is 
clearly a valuable tool in our Nation's efforts to investigate 
and prosecute drug traffickers.
    And in closing, I know that you have covered many aspects 
of the President's fiscal year 2007 Federal drug control budget 
with the Office of National Drug Control Policy Director John 
Walters, but I think that it is important to note that the 
President's 2007 drug control budget request is $12.6 billion. 
That's an increase of $80.6 million over fiscal year 2006 
enacted level.
    Again, I thank you for the opportunity to appear before you 
today and look forward to answering any questions you or the 
members of the committee may have.
    [The prepared statement of Mr. Burns follows:]
    [GRAPHIC] [TIFF OMITTED] 32440.025
    
    [GRAPHIC] [TIFF OMITTED] 32440.026
    
    [GRAPHIC] [TIFF OMITTED] 32440.027
    
    Mr. Souder. I thank you all.
    Let me start with a few general comments, that this 
subcommittee has jurisdiction over the Department of Justice as 
a whole, and obviously our primary focus, because it was the 
choice of the leadership to make this committee a drug 
committee because it was divided up into so many different 
ones, and similarly, that was why we created the Office of the 
National Drug Control Policy, that at some point--and I want to 
make sure I state this on the record. I am a strong believer in 
OCDETF. OCDETF has done a great job in its task. I believe that 
the drug courts have been a phenomenal impact at the local 
level, and it is something we need to look at expanding. I 
believe that Bureau of Justice Assistance in looking at--for 
example, in my district, the number of people coming out of 
prisons is overwhelming certain neighborhoods, and the ability 
to try to reach these people while they are in prison, to try 
to transition out--most of them, by the way, are there for drug 
and alcohol-related reasons, but as they come back in, if we 
didn't have these kind of programs to figure out how we are 
going to deal with it, I don't know what we would do.
    This isn't about the other programs. What we are focused 
here right now is more directly on the narcotics efforts, some 
of which overlap, and some of which don't overlap. So--and let 
me also say it's not about individuals. Let me be real honest. 
As the only remaining--I shouldn't speak for Mr. Cummings. 
Let's just say on the Senate side, every major antidrug person 
has already asked for the resignation of the drug czar, and I 
have not done so at this point, but my frustration is high. And 
I know many others in the House have tried to bring forth a 
resolution to do that, and thus far I don't think the President 
really cares.
    But I am saying this directly. I don't have a problem with 
Attorney General Gonzalez running a lot of these programs. He 
actually spoke up first on meth. He's been very articulate. 
This isn't about individuals. Paul McNulty has been a friend of 
mine for many years. I can't think of another individual that I 
would more trust running a program than Paul McNulty. He's a 
wonderful guy. We worked with this. This is about structure. 
And one of my questions to Mr. Nash is, do you know why we 
created the Office of National Drug Control Policy? Do you know 
why we created the drug czar?
    Mr. Nash. Yes, I do. And I am very sensitive to the 
concerns, and I think it was a well-conceived notion at the 
time that it was taken, and it remains a well-conceived notion. 
It is very important to have someone who has the President's 
ear and who has the bully pulpit to make sure that drug 
enforcement remains front and center in the national attention.
    I think that consistent with that, however, and consistent 
with the President's proposals, is the notion that shop is 
within the office of the White House. It is a policy shop, and 
the types of programs that office runs are programs that are 
different in nature than the HIDTA program. They are not law 
enforcement operations, and it is somewhat anomalous to have a 
law enforcement operation being run out of the White House, 
whereas at the Department of Justice that's what we do. And I 
think that there would be significant benefits to be gained by 
moving this law enforcement program into the Department of 
Justice and allowing people with law enforcement background, 
like Mr. McNulty, as you acknowledged, to take control of a 
number of these assets and to align them so that they are all 
engaged in a nonduplicative, effective fashion. And I think 
that's what motivates the President's proposal here.
    Mr. Souder. I can't tell you how much I appreciate that 
answer because it is a straightforward answer about--that I 
believe actually reflects much of what is going on behind the 
scenes. And I want to make clear that I am putting some words 
in your mouth that you did not intend, but let me kind of give 
an interpretation to what you just said, and then you can 
disagree, because I don't think you're going to like the way I 
interpret it.
    Your statement today gives more guidance as to how you 
would do the restructuring of the HIDTA, and I appreciate some 
of the attempts in there to clarify. But this clearly was 
driven by something beyond a frustration with the HIDTA, 
because, to date, nobody in a private or public statement has 
been willing to say HIDTA--they don't think it is working well. 
They haven't really, other than it is somehow going to 
streamline the relationship. But when I ask both informally and 
publicly, ``oh, you mean the Attorney General's office doesn't 
coordinate with the drug czar? You mean you don't coordinate 
with the HIDTAs now?'' And everybody says, ``oh, no, we 
cooperate now. But how would you cooperate more? You mean there 
are things you could do to cooperate with the current HIDTAs 
that you're not currently doing?'' Nobody wants to say that.
    This is driven by policy decisions beyond what's 
immediately in front of us. One is budget, because if it isn't 
isolated as part, where we can see it on narcotics directly, it 
gets much harder for us to sort out what's with narcotics. But 
the second is a philosophical position, and the philosophical 
position behind what you just said is a change of what the drug 
czar's office was intended to be by Congress, who drew it up 
over the objections of administration in the first place; not 
the current President, but long before this. And the concept of 
Congress was not--was to give the drug czar direct control over 
some programs, rather than to sit in some building--room in the 
Executive Office Building giving his opinions and being ignored 
by the Secretary of State, ignored by the Secretary of Defense, 
ignored by the Attorney General, ignored by the President 
because he didn't have any actual money or people to mobilize.
    That's why we created the drug czar's office; that we 
already know that drug czar isn't being, in my opinion, a very 
effective advocate for many of the policy decisions that are 
being made. We have yet to identify any kind of programmatic 
decision that he's objected to. And Dr. Rice, Secretary Rice, 
or Secretary Rumsfeld goes, oh, yeah, you're right, we actually 
do need to deploy more things on heroin in Afghanistan, we 
actually do need to do this down in Colombia; because he isn't 
treated with the respect even now with all this behind him.
    Taking HIDTA out roughly takes--I think it's what, close to 
50 percent of the dollars of the agency, other than their 
immediate staff. Then the CTAC is being reduced dramatically, 
which is another big chunk of the budget, which leaves the 
media campaign, which at best is shaky ground here. And I know 
from talking to Director Walters, he somehow thinks he is going 
to strengthen the media campaign. Congress is furious that the 
media campaign hasn't been focused more on meth, and unless 
it's focused more on meth, it's going to be cut again and maybe 
disappear. So there won't be any reason to have any drug czar's 
office if we take all these things out.
    But the honesty of your statement, which is, by the way, 
not dissimilar to some of these other types of things as we 
tried to move through the faith-based office question and its 
direct control, is a philosophy of the administration. The 
administration does not have a right, by fiat, to change 
policies that aren't authorized by Congress. This proposal is 
dead on arrival as long as I am here and as long as the 
Republicans are in the majority and I am here, and I can assure 
you from Senator Biden that he has no intention whatsoever 
should the Democrats take over in the Senate. And I think you 
heard from our colleagues here in the House that their goal 
here isn't to gut the drug czar's office.
    This proposal is a waste of everybody's time. It is a waste 
of any kind of staff time you have developing it. It isn't 
going to happen. What we need to do is figure out how to make 
the HIDTAs more effective to integrate. If there's an 
integration problem, let's deal with the integration program 
with the Department of Justice.
    This isn't just about the Department of Justice. This is 
about the Department of Homeland Security and how you are going 
to integrate with the Border Patrol and the Coast Guard and 
ICE. This is about the State Department and how you integrate 
their efforts and satellite information and the data and all 
this. This isn't just about the Department of Justice.
    The Department of Justice does a terrific job, and there 
was a fundamental question, should we have a drug czar or 
should we make the DEA, in effect, the drug czar's office, 
should everything run in DEA. But because so many departments--
the Agriculture Department gets into research and spraying. The 
National Forest Service has much of the marijuana on their 
grounds. It doesn't make sense to consolidate all of these 
joint-type efforts. You yourself and in your testimony, which 
was very good on showing the different HIDTAs and what they do, 
show that this isn't much of what they do, isn't even in your 
domain. It's partly in your domain. Without the U.S. attorneys, 
without the prosecutors, this wouldn't work. Without DEA it 
wouldn't work. But it's also in other people's domain. That's 
why we created the drug czar's office, and the budget this year 
is a direct assault on that, which then gets underneath the 
assault on State and local cooperation, because to try to 
entice their dollars in, we didn't say everything had to be 
national or that it was going to be national goals. We tried to 
adjust this sharing. Furthermore, many of us warned about the 
COPS program, that locals were going to get too dependent on 
the Federal dollars, but as a practical matter, because often 
we as Republicans at every level don't want to raise taxes.
    What happened in the narcotics efforts is that the Byrne 
grants and the HIDTA are the last remaining frontiers of where 
the local law enforcement is funding their narcotics operation. 
Only 1 percent of their budget, but it may be 80 percent of 
their narcotics budget. Now we're faced with the reality in 
front of us. If we wipe out this budget, there will be no 
narcotics task forces. There will be nobody putting money into 
the HIDTAs, and we won't have a narcotics program. Then the 
national efforts that are so important to OCDETF, to Panama 
Express and all those groups, if your locals pull out of the 
stuff, nobody's going to be making the street arrests with us 
to make the Federal cases.
    We have the potential house of cards, and it's going to go 
like that. And that's why in Congress there's such a push back, 
not because of the individuals involved, not because of that we 
have an argument with the Justice Department which we overall 
think is doing a good job; we have frustrations with the drug 
czar's office, we have frustrations with the general thrust of 
it. But some of it, which is what we deeply felt from the time, 
and I have been a strong supporter of this administration, but 
almost from the word go, there was first a movement afoot to 
take the drug czar's office down from Cabinet-level status. 
There was objection when we put in the ONDCP reauthorization 
that it had to have because we can't do that, only the 
administration can, but suggested that it should be treated 
that way. Then the administration tried to take it out of our 
ONDCP bill, that there is a lack of fundamental awareness of 
what--why we have this office and our concern that we are going 
to go--narcotics are going to remain a core challenge in this 
country, and we are going to go chasing off on different types 
of terrorism, we are going to go chasing off on bird flu, we 
are going to go chasing off on church burnings, we are going to 
go chasing off on missing children, and that's what the 
Attorney General has a wide sweeping thing.
    The DEA and the drug czar's office are the two things that 
their focus is narcotics, and if we weaken that office, we will 
weaken the narcotics efforts.
    If you would like to make any comments. I didn't mean to 
misstate that, but I felt that you articulated what is, in 
fact, the administration's concerns.
    Mr. Nash. I obviously can't, in the timeframe, respond to 
each and every one of your points. I would like to pick out one 
of your points, however, and address it because I don't want my 
own comments to be misconstrued, and that is in focusing on 
coordination between HIDTA and the Department of Justice, I 
don't want to leave the impression that HIDTA presents a 
special case, and that it is more difficult for the Department 
of Justice to coordinate with HIDTA than it is for the 
Department of Justice to coordinate with the Department of 
State or the Department of Homeland Security or the Department 
of Treasury, or any of the other Federal departments that have 
a piece of the drug enforcement mission.
    The fact is that coordination of drug--multifaceted drug 
enforcement investigations that span State jurisdictional 
boundaries, that span international jurisdictional boundaries 
is one of the more difficult tasks that confronts modern law 
enforcement, and to the extent that anything can be done to 
lower barriers for that coordination, the Department of 
Justice's viewpoint that should be done, and that is one of the 
things motivating this proposal, is that in our experience it 
clearly is easier to coordinate parts of an investigation when 
the two entities being coordinated are housed within the same 
shop. And so the same thing that makes HIDTA effective, which 
is collocated State and locals from various police departments 
and Federal agencies sitting together in the same place working 
cases in conjunction with one another, that motivation that 
makes that work and that caused us to bring them together in 
that environment, that argument also makes sense in taking 
HIDTA and folding it into a more central place, in our view.
    Mr. Souder. So maybe the Southwest border should go under 
DHS, the San Diego should go under DHS, because it's not 
bordering HIDTA. I mean, if the principle is where do they 
overlap the most, Justice Department isn't necessarily where 
you would put it. That's how we got into the whole concept of 
the drug czar in the beginning.
    Mr. Nash. The Department of Justice does have the Federal 
mission for domestic law enforcement, and from that perspective 
it certainly makes sense that the HIDTA program reside, in our 
view, because it is a wonderful program and because, you know, 
we would be foolish to look a gift horse in the mouth, we 
certainly would love to be associated with that program and to 
take advantage of those resources. If there is some sentiment 
that the HIDTA program should be designed as a border 
protection resource, then certainly Congress should look to the 
Department of Homeland Security. But as presently constituted, 
as a law enforcement entity designed to aid the coordination 
between State and local and Federal law enforcement, in our 
view, the Department of Justice is the appropriate place.
    Mr. Souder. Well, you touched on another point, and that is 
the Department of Homeland Security is also supposed to be 
doing narcotic enforcement, and that would include at the 
border, inside the border and elsewhere. ICE, if they are, do 
not view part of their mission--which is one of the things we 
had a concern about, that the administration separated 
counternarcotics out from terrorism, and our staff learned that 
the Homeland Security Committee, of which I'm part, has changed 
that under law, but that suggested another concern there which 
is the administration's lack of understanding the link in 
terrorism, immigration and narcotics.
    I'll yield to Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    To Mr. Burns, Director Walters gave us a number of 
assurances when he first came to us as a nominee, and those 
assurances included a very strong commitment to support demand 
reduction programs and HIDTA. President Bush, then Governor 
Bush, personally pledged his commitment to HIDTA during his 
first Presidential campaign. So everyone involved with the 
HIDTA program appears, you know--we are beginning to feel a bit 
of a betrayal with regard to the commitment to HIDTA because 
these proposals would pretty much terminate the program as we 
know it. As we know it. What considerations have led the 
administration to reverse course with respect to HIDTA? And I 
do see it as a reversal.
    Mr. Burns. Well, I wasn't here, Congressman, when Mr. 
Walters was confirmed. I'm not privy to statements and 
discussions or negotiations you or others had with him.
    Mr. Cummings. OK. But how long have you been with the 
Department?
    Mr. Burns. Since 2002.
    Mr. Cummings. OK. Well, you know what's happened over the 
last few years.
    Mr. Burns. Yes.
    Mr. Cummings. And some of this, things I'm talking about, 
are things more recent that have happened since you have been 
there. So let's just separate, since you weren't back there 
during the nominating process, and talk about this evolution of 
how we got here today as far as HIDTA is concerned, from your 
standpoint.
    Mr. Burns. From my standpoint I don't believe that anyone 
could not recognize the effectiveness of HIDTA, its ability to 
bring Federal, State and local law enforcement together. If you 
take into account the 93 percent of all law enforcement in this 
country is State and local, and 7 percent is Federal, clearly 
if we are going to coordinate efforts in this country with 
respect to reducing the flow and the demand, and thus addiction 
to illegal drugs, there has to be a cooperative effort between 
Federal, State and local.
    I think Mr. Nash's statement, which is the same that is in 
my opening statement, is that this administration believes--and 
it may be a policy dispute--but this administration believes 
that the Office of National Drug Control Policy should be first 
and foremost a policy office, and that it ought not be running 
operational programs. This is the only supply side operational 
program that I am aware of in the White House. And I don't want 
to speak specifically for Director Walters, but I can tell you 
that he believes that it ought to be placed with other 
operational supply side agencies and offices, DEA, FBI, OCDETF, 
and that there it will be in a position to coordinate better.
    Mr. Cummings. Well----
    Mr. Souder. I should have, because I didn't realize ONDCP 
was taking this same position. So that means the national media 
campaign should move to because it's operational?
    Mr. Burns. Well, I said the only supply side operational 
program that I'm aware of. That would be a prevention and 
education program.
    Mr. Souder. Should CTAC be moved?
    Mr. Burns. I'm sorry, I can't hear you.
    Mr. Souder. The CTAC, the different things that local 
police--that you proposed to reduce, should that program be 
moved out of your Department?
    Mr. Burns. I would say that's consistent with the policy of 
this year's proposal. We are cutting all of the technology 
transfer aspect.
    Mr. Souder. You would keep that whole thing out of your 
Department?
    Mr. Burns. I think the 9 million is research.
    Mr. Souder. So why would you keep research and demand but 
not supply? Is there any precedence in the White House that you 
would run--I can't think of another White House agency that 
runs a national media campaign of any sort. If the principle is 
that you shouldn't be doing--you should be policy and not 
running agencies, I assume that, to be consistent, everything 
would be taken out except for the policy. Research is done by 
NIH. Research isn't managed in a White House policy shop.
    If you're arguing you're just a White House policy shop, 
which, by the way, you aren't, you're created by Congress, but 
the slippery slope you're on is that your other programs would 
follow that same criteria. There aren't other White House 
policy shops that run research operations that manage it, that 
manage national media campaigns. I mean, this is a slippery 
slope you're on.
    Mr. Burns. I'm just telling you that the administration's 
position is that the HIDTA program, in response to the 
question, is a supply side operational law enforcement-type 
program that this administration believes is better situated in 
the Department of Justice.
    Mr. Cummings. Now, you understand that the HIDTA Directors 
have a whole different view of this; do you not?
    Mr. Burns. Yes.
    Mr. Cummings. And I know for a fact that you have a 
tremendous respect for these Directors because you know that 
they are out there every day giving it everything they've got, 
sometimes going against very difficult circumstances. And so 
you really believe in them, right?
    Mr. Burns. Yes. Absolutely.
    Mr. Cummings. OK. And these are the folks who basically are 
on the ground. Would you say they are the ones who are pretty 
much dealing with these drug problems almost face to face with 
the persons who are dealing in the drug trafficking; is that 
correct?
    Mr. Burns. Absolutely.
    Mr. Cummings. And one of the things that the President says 
when he always talks about giving due respect to those who are 
on the ground, and I'm not trying to be smart or anything, but 
it makes sense that if you've got people who are on the ground, 
who are dealing with it every day, who are facing every day the 
very people that go out there not knowing--into the streets and 
into the meth labs not knowing whether they are going to come 
back to their families, they deal with that every day, and if 
they say--and you already said that you have a tremendous 
amount of respect for what they do. If they say they don't 
think this is a good idea, I mean, have you all taken that into 
consideration? Do you understand what I'm saying?
    Mr. Burns. Yes, sir.
    Mr. Cummings. Yeah. I mean, I'm just curious. And they are 
adamant, and I don't think that this is a just some little turf 
battle for them. They're very, very upset about this. And we, 
up here, we are trying to hear all of it, but we are also 
trying to make sure that whatever we do in spending the 
taxpayers' dollars is done effectively and efficiently.
    So what we have on the one hand are the people who are on 
the ground saying, Congresspersons, I beg you not to put this 
under Justice because we don't think that it will be as 
effectively run if you do that. But on the other hand, we have 
the administration saying, you know, we want to do it our way. 
And I guess what I am getting to is who should we be listening 
to?
    Mr. Burns. Well, I have the utmost respect for each and 
every one of these 28 HIDTA Directors, 27 men and Mona Neill in 
north Dallas, TX. They are not only my colleagues, they are my 
friends. But, Congressman, I am here today on behalf of the 
Office of National Drug Control Policy. The President's budget 
proposal and that of the Directors is that this program is 
better situated in the Department of Justice where it is with 
like Federal operational programs and not in the Office of 
National Drug Control Policy.
    Mr. Cummings. Other Directors of what? Not the HIDTA 
Directors. The HIDTA Directors believe that this ought to be 
under what?
    Mr. Burns. Oh, no. The HIDTA Directors in unanimity believe 
that it ought not be transferred to the Department of Justice. 
I'm just telling you that the President's budget proposal, and 
I am here on behalf and in support of that.
    Mr. Souder. Just for the record, because he said directors, 
you meant the OMB Directors, the ONDCP Director; is that who 
you meant by directors, the President's directors?
    Mr. Burns. Yes.
    Mr. Cummings. Thank you, Mr. Chairman. Let me--and I know 
that when you say that, basically what you're saying is you're 
coming with the marching orders from the President. I got that 
piece pretty much right. And from your Director, Director 
Walters; is that right?
    Mr. Burns. Yes. My job as Deputy Director at the Office of 
National Drug Control Policy for State and Local Affairs is to 
support the President's budget.
    Mr. Cummings. Right. Now. I guess what I'm asking you is 
how did you get there? In other words, how did you all get--we 
have on the one hand these folks who are saying, you know, this 
is not going to work; begging and pleading, saying, 
Congresspeople, please, don't let this go into Justice. We love 
Justice. Justice is wonderful. We respect them. That's what 
they're saying to us. But they're saying, this will not work. 
Now--and we've got you saying what you're saying.
    And all I'm trying to say to you is that we are like sort 
of in the middle here. We want to hear the President, and pay, 
you know, due respect to the President, but we've also got 
folks that are like our constituents who are out on the street. 
And so I am saying, how did you all--did you all come together 
with the HIDTA Directors and say, look, this is what we think 
we ought to do? Did you get any input from them? Because what 
you're doing affects what they do every day. I'm just curious.
    And by the way, we had this same argument last year. See, 
that's the other piece. And so I was wondering in that year--
well, first of all, did you do it before for last year's 
budget, and then did you do it again for this year's budget, 
knowing that it was an issue?
    Mr. Burns. Yeah. And I think Congress spoke last year, and 
whatever you do this year will be dispositive with respect to 
the issues. You have an administration that believes a program 
should be in Justice. You have what I believe is a successful 
program, the High Intensity Drug Trafficking Area program, with 
28 of the finest law enforcement officers in the country saying 
it ought to remain where it is. And you're right, we went 
through the same thing last year, and here we are again.
    Mr. Cummings. Well, last year you all recommended a 56 
percent cut in funding for HIDTA; is that correct?
    Mr. Burns. That's correct.
    Mr. Cummings. And this year the proposal is substantially 
less of a cut. Can you explain to me why that is? In other 
words, why did you decide this year, because you came in with 
some strong arguments last year, 56 percent, let's do this 
cutting? And you were trying to convince us that this was what 
we should do, and now it is substantially less of a cut. I 
think, what was it, 16.4? Substantially less of a cut. So 
what's the difference between last year and this year?
    Mr. Burns. Well, I would say two things. One, the $207.6 
million is what the President has asked for the last 3 or 4 or 
5 years. That's level-funded. It would not be indicative of a 
cut from $228 million. That's supplemental money that the 
Congress has added to the President's budget request each and 
every year. So the $207.6 million number is consistent.
    With respect to $100 million last year, and now requesting, 
as we have in past years, the $207.6 million number, all I can 
say to you, Congressman, is we heard what you said last year: 
Congress believes in this program, don't cut it. Here we are 
back at a level-funded amount.
    Mr. Cummings. So what are you trying to tell me? You heard 
with the left ear that we said don't cut it, but you didn't 
hear with the right ear that we said don't put it in Justice. 
Is that a fair statement?
    Mr. Burns. It's a fundamental difference of opinion between 
two branches of our government, the executive branch and the 
congressional branch.
    Mr. Cummings. OK. I just have two more questions, and I 
want to go to Ms. Schofield.
    Ms. Schofield, can you describe the consultation that took 
place between ONDCP and the Justice Department concerning the 
President's proposal to eliminate the Byrne Justice Assistance 
Grant program?
    Ms. Schofield. Mr. Cummings, I had no such discussion with 
ONDCP, and I'm not aware that there were discussions between 
OJP and ONDCP about the budget.
    Mr. Cummings. So it wouldn't surprise you if there were no 
discussions? All right.
    Mr. Souder. Can I ask a question? I thought that the 
Justice Department was proposing it be a policy shop.
    Ms. Schofield. I'm sorry?
    Mr. Souder. I thought the Justice Department and the White 
House position was they wanted the drug czar to be a policy 
shop where the drug czar was in charge of giving suggestions on 
the drug budget. And you're saying you didn't consult on that; 
no?
    Ms. Schofield. No. What I am saying is I am not aware of 
any discussions. I came to OJP last June after being confirmed 
by the Senate and inherited part of the 2007 budget, but we 
have had no discussions with ONDCP about our----
    Mr. Souder. Would you check with other people in the 
Department of Justice?
    Ms. Schofield. I certainly will, and I will let you know.
    Mr. Souder. The oversight committee, we would like to 
know--we are not going to get into arguments about the 
documents--is was there substantive discussions with ONDCP 
about the Byrne grants that directly affect drug law 
enforcement, because we heard under oath that the 
administration's position was that the drug czar's office 
shouldn't operate programs, they should be a policy shop. And 
if they're a policy shop and not talked to on policy, then what 
are they?
    Ms. Schofield. I will, and I will let you know.
    Mr. Cummings. Thank you very much.
    Mr. Nash, you seem to have a lot of faith that if HIDTA is 
under Justice, HIDTA's going to do just fine. Is that right? In 
other words they'll do just as great a job as they are doing 
right now. I think that's pretty much what you said. If that's 
not what you believe, just say it.
    Mr. Nash. No, no. I do believe that they are an excellent 
program now. I do have confidence that this proposal is 
designed to make them an even better program.
    Mr. Cummings. And although they don't believe that it would 
make it a better program, the Directors, that is----
    Mr. Nash. I think they have voiced that opinion very 
strongly, yes, sir.
    Mr. Cummings. So it is sort of like Big Brother says this 
is good for you.
    Mr. Nash. Well, I will say, as I tried to correct in my 
initial testimony, I do believe that much of the proposal that 
the HIDTA Directors have been responding to in the past was 
based on misconceptions as to what it would mean if the program 
were moving to the Department of Justice.
    Mr. Cummings. And what were the major misconceptions that 
you, you know--apparently you have some idea what you think 
they were.
    Mr. Nash. Well, I do believe that the messaging--and I'm 
not sure how this was interjected into the messaging, but the 
belief is that the HIDTA program would be merged into the 
OCDETF program, and if not merged, it would be run like the 
OCDETF program. And my--the thrust of my testimony was in the 
hopes of dispelling that notion.
    I think we do, at the Department of Justice, have an 
appreciation for what it is that makes the HIDTA a successful 
program and one that should be preserved in its current form if 
it were to move to the Department of Justice.
    Mr. Cummings. Well, I can tell you that I agree with the 
chairman with regard to OCDETF. I think OCDETF does a great 
job. It has always been, as long as the chairman has been 
chairman and I have been ranking member, it has been a major 
concern of ours that we always are concerned, particularly 
after September 11th, that the whole idea of fighting the drug 
war would take a--not a back seat, but would be maybe put in 
the trunk. And then the war on terrorism, which is very, very 
important, and all of us agree we've got to do it, but we did 
not want it to fall back into the trunk, so to speak.
    And I think one of the concerns is that when you--moving it 
over to Justice, because Justice is dealing with so many 
things, you know, that it might be pushed back. That's one of 
the concerns. And it sounds to me, when I listen to your 
testimony, as if you're going to. The program basically would 
be put under Justice, and then the program would basically kind 
of operate just like it's been operating. So then the question 
becomes, then if it's going to do what it's been doing, and 
we're just kind of moving it over, then why do it?
    You know, and I've heard your testimony, but that's what 
really makes me wonder. And the reason why I'm so concerned 
about it is that if I'm the person who's on the ground, and I'm 
putting my life on the line, and I say that I don't think this 
is going to work, then, you know, I would just hope that--and 
then, not only that, but I've got the Congress saying that we 
feel pretty comfortable with the way things are, that is, with 
HIDTA not being under the Department of Justice. It seems to me 
that we would stop and just say, OK, all right, OK. Let's do it 
that way and let it go forward.
    And so now we're going to have to go through this same 
exercise again. And I can guarantee you--I can't guarantee 
because I can't speak for the Congress, but there's a pretty 
good chance it'll come out the way it's been, the way it came 
out last year. Thank you.
    Mr. Souder. Thank you. And I want to say that I believe 
your statement did clarify some, as did Mr. McNulty's meeting 
with me. However, the misconception is because last year, under 
oath, there were no assurances, there was nothing that was sent 
up to Congress, and therefore we leaped to the assumption that 
since it was being put under OCDETF, and since the OCDETF model 
didn't include participation, and, in fact, testified under 
oath relative to that, that's how the misconceptions occurred. 
It wasn't like we pulled them out of thin air. It's there was 
nothing there.
    This is the first time we have seen any details in print. 
We did have some verbal conversations. It didn't change our 
minds, obviously, but at least it had some guidelines for the 
first time that we have ever seen in print.
    Yield to Ms. Watson.
    Ms. Watson. I listened very diligently as to the reason why 
you have these programs that moved on the Justice Department so 
there could be better coordination, but it does not work on the 
streets. You know, this is not the first hearing I have been in 
and I hear all these grandiose proposals and we are going to do 
this that and the other. It does not work on the streets. And I 
am wondering, how do you evaluate success? How are you going to 
show that the move will make the programs more effective.
    Now I am going to throw out some thoughts; and whichever 
ones of you would like to answer, please do so.
    But the President's request repeats last year's proposal to 
eliminate or reduce funding for key drug control programs 
within the Department of Justice that support Federal, State 
and local cooperation. The President proposes a more than one-
third reduction in the funding for the COPS Meth Hot Spots 
program which allocates money for problem-oriented policing to 
combat the use and distribution of meth labs, including child 
endangerment programs, enforcement, drug courts, training and 
treatment.
    On August 29th, I lost my 22-year old niece in Sacramento, 
CA, because of methamphetamine use once or twice. We identified 
a property where young people were going in, cooking up the 
ingredients and turning them into pills and selling them. These 
things lived with me in Sacramento when I was in the Senate. We 
called and we cannot get law enforcement out because the county 
sheriffs' office is shorthanded. The people that report are 
intimidated and fire bombed. I am on the ground.
    I just lost a niece, 22 years old. So you can sit here and 
talk about the coordination at the same time you are cutting 
the ability for the State, the counties and the cities to 
enforce? And I don't hear a word about how you are going to 
evaluate these programs, to see that when you reduce their 
dollars, the program is still effective. I don't understand 
that when our cities and counties are hurting and our States 
are hurting and we are not putting money into COPS programs and 
meth is getting out of control in the suburban areas.
    I lived in the most unlikely area for drug sales and drug 
use, but it is more prevalent in rural and suburban areas. That 
means we need boots on the ground, and how do we do that when 
these programs are being cut?
    Would someone like to respond? Mr. Burns.
    Mr. Burns. Well, I would rather defer to the other two.
    Ms. Watson. Whoever.
    Mr. Burns. Let me just say this.
    First of all, I am sorry for your tragic loss----
    Ms. Watson. Thank you.
    Mr. Burns [continuing]. And I mean that.
    Ms. Watson. Thank you. I am sorry, too.
    Mr. Burns. That is terrible. But you raise a number of 
important issues, and I know that the chairman's time is tight, 
but we could be here all day, and I would love to do that and 
sit down with anyone----
    Ms. Watson. Just explain to me how you do it when you cut 
the budgets of these programs locally.
    Mr. Burns. I will tell you this. The overall President's 
request for this year is higher than last year. So when you say 
``cut,'' it is a matter then of sitting down and making a 
determination with respect to, well, what got cut? Was because 
if something got cut, something certainly got added. Drug court 
slash, there were $10 million, $10 million. They are an 
effective program in this country. The proposal this year is 
$70 million. So there has been a $60 million increase in the 
request from the President.
    Methamphetamine labs have to be cleaned up in Sacramento 
and all across the country. Last year, there was $20 million 
available for that. This year, we have asked for a $20 million 
increase.
    So those are two examples of things that haven't been cut--
--
    Ms. Watson. I need you to yield----
    Mr. Burns. Those are examples of things that haven't been 
cut.
    Ms. Watson. I need you to yield for a moment. Is this not 
correct? The President proposes a more than one-third reduction 
in funding for the COPS Meth Hot Spots program. Is that true or 
not true?
    Mr. Burns. My understanding is that is true.
    Ms. Watson. That is what I am referring to. That is why I 
used the example of my niece, because it was methamphetamine 
that effected her heart and took her life.
    And so how do you explain to me that there's an increase 
somewhere?
    Mr. Burns. Well, because you latched on to one program that 
was cut----
    Ms. Watson. Exactly.
    Mr. Burns. An additional $30 million in meth-specific 
treatment that has been requested, $30 million more to reach 
out to people in your community and across the country, to meet 
a need that everyone agrees was lacking. So there has been an 
increase in that.
    It is a fundamental decision by the administration to look 
at programs. There is a process in place to judge them, and we 
can all agree or disagree what the scorecard was----
    Ms. Watson. Mr. Burns.
    Mr. Burns. Yes.
    Ms. Watson. I mentioned one specific program that has been 
cut.
    Mr. Burns. Yes.
    Ms. Watson. And the results of cutting that program means 
there is less training of local police and treatment locally. 
And you can talk about all over the country. But when there 
is--of course, you can say it is an increase if you are talking 
about the whole country. But when you cut those specifically in 
these programs--and I told you we saw the lab. You can't even 
get it closed down.
    So we are talking about Hot Spots. And the money for these 
Hot Spots and to train law enforcement and to coordinate has 
been cut.
    So how can you say because there is more money nationally 
but for this specific program there is less? We are seeing the 
negative results of less funding. So I don't understand your 
explanation of how you could cut this program and expect things 
to get better.
    Mr. Souder. Will the gentlelady yield?
    Ms. Watson. Yes.
    Mr. Souder. Did you say it was an increase from your budget 
request?
    Ms. Watson. I can't hear you.
    Mr. Souder. Did you say it was an increase from your budget 
request?
    Mr. Burns. My understanding is that the President's fiscal 
year 2007 Federal drug control budget is an increase over the 
2006 Federal drug control budget.
    Mr. Souder. So you are saying you increased your proposal 
which Congress actually increased more the previous year?
    Mr. Burns. Yes.
    Mr. Souder. So it is actually a reduction in what we spent 
last year?
    Mr. Burns. It is an increase over what was enacted in 2006. 
It is more--we are asking for more than what you enacted last 
year, Congressman.
    Mr. Souder. So we are--so there has certainly been a shift.
    I will yield back. Ms. Watson, did you have any further 
questions?
    Ms. Watson. I just wanted to say that funding for the 
National Alliance for Model State Drug Laws would be eliminated 
under the President's request. And to propose elimination and 
scaling back of vital demand reduction and domestic law 
enforcement programs raises serious questions about the depth 
of the administration's commitment to reducing domestic demand 
for illegal drugs and supporting State and local drug 
enforcement agencies and efforts. And this is what I am 
concerned about on the ground.
    If we accommodate these requests and cut, we can't get the 
job done. It is not really attacking the problem. And I am 
trying to find out how you think we can really address these 
issues without the kind of resource supports down to the local 
level.
    Mr. Burns. Well, my response, without being repetitive, is 
twofold. One, these cuts haven't taken place yet or these 
changes. This is proposed for 2007. So as we sit here today 
there has not been a one-third cut in the program----
    Ms. Watson. That is the budget we are working with. You 
know, the President proposes. We advise and consent. So you are 
representing the administration. I am raising the question of 
``tell me why the proposal would be made such as it is.'' Of 
course, we are going to work with it, and we are going to do 
all we can to see that it does not go into force. But you are 
sitting here, and we are having a discussion, and I just want 
to know what your thinking is and what your real commitment is 
if you want it to be successful and how you measure that.
    Thank you.
    Mr. Souder. Thank you.
    Let me ask this question again. You are saying that your 
total budget request is how much of an increase? Was it $20 
million? Is that what you said?
    Mr. Burns. My understanding, Congressman, is that the 
President has asked for in the 2007 drug control budget $12.6 
billion; and that is $80.6 million over what Congress enacted 
in 2006. So it is a----
    Mr. Souder. So it is less than 1 percent.
    Mr. Burns. But the point being, if we are talking about 
cuts and how could you come before us with all of the--it makes 
the point that this President and this drug czar are as 
committed this year in overall funding against this issue than 
what was enacted by Congress last year. We are asking for more 
than what was enacted. It makes that simple point, nothing 
more.
    Mr. Souder. We will be putting into the record--we will at 
least take some of the summaries. We submitted this report that 
went through the entire committee with additional views, all of 
us signed on, and it literally takes apart a whole bunch--for 
example, you didn't count the war supplemental funds, previous 
year in Afghanistan, on narcotics. We have disputes at how you 
reallocated and made changes in the DOD budget, what you 
allocated to narcotics, that it doesn't account for the fact 
that--so we don't believe that the budget comparison is 
accurate.
    The second point being we are also here arguing about 
shifts inside the budget that move from State and local 
assistance to Federal, which is a policy question. It is true 
that the overall budget isn't being shifted by 40 percent. It 
is being done if dollars are going to State and local, whether 
we are getting into safe and drug free schools, which is 
another argument that we have had. The part that was going 
directly to schools was being eliminated, the part that was 
going to the Federal was increased, and there was a 
philosophical shift in addition to a dispute about whether the 
total dollars are there.
    The way that the Department of Homeland Security was being 
accounted, all of a sudden arbitrarily the administration 
decided to assign part of that into the narcotics budget. That 
is part of our frustration even in matching oranges to oranges.
    Yield to Mr. Davis.
    Mr. Davis. Thank you very much, Mr. Chairman.
    I know that I missed most of the discussion because I was 
someplace else talking about an ounce of prevention is worth 
much more than a pound of cure; and I am just wondering, Mr. 
Burns, did I hear you mention the word ``treatment'' in your 
response to Representative Watson?
    Mr. Burns. Yes, sir.
    Mr. Davis. There may have been some increase someplace that 
maybe treatment would take care of some of the need that she 
was raising some of the issue about?
    Mr. Burns. My response, Congressman Davis, was she asked me 
why a particular program may be cut. And my response, and 
probably awkwardly, was to tell her that the administration in 
weighing and grading and judging a number of programs. Indeed, 
it recommends cuts of some, but then there are increases of 
others. I gave her some examples of what has been increased; 
and I used the example of treatment, specifically 
methamphetamine treatment, because there has been a specific 
recommendation this year in addition to the same $1.8 billion 
that goes toward treatment in this country that several million 
be directed specifically toward methamphetamine.
    Mr. Davis. And so there is some increase in treatment 
resources that in terms of the overall problem should help with 
reduction.
    Mr. Burns. I would hope.
    Mr. Davis. Let me ask the other one question that I really 
wanted to ask, is how much coordination is there between the 
different approaches? I mean, is there an effort to seriously 
coordinate trafficking, prevention, law enforcement with 
treatment? Are there programs designed where we try and bring 
all of the entities together to kind of look at how effective 
are we really being, dealing with all components at the same 
time?
    Mr. Burns. That is a great question; and the answer to that 
is the Office of National Drug Control Policy has not only 
tried to do that on a national level, a State level, a city 
level, but a State and local level.
    We have a major cities initiative, Congressman, where we go 
into Chicago, we go to Los Angeles, we go to Miami; and we say 
we need to coordinate. We need to coordinate prevention and 
education and treatment and law enforcement. Do we have a 
balance? Is too much being spent on one area and not another? 
How much are the cities putting in? Maybe the State isn't 
spending as much money as it should or sharing its burden, and 
maybe the Federal Government has not looked at community 
coalition or treatment modalities or that law enforcement needs 
some beefing up.
    So, to answer your question, that is the crux of what we 
have been trying to do with respect to coordination across the 
country. Do we have the appropriate balance and are we funding 
and supplying the various programs enough?
    Mr. Davis. Is the lead the same in each area? Are there 
different lead entities that might handle the coordinated 
effort? For example, could it perhaps be law enforcement in one 
area, maybe somebody from the treatment community in a 
different area, or prevention people in another area? Is there 
any one model for that or are there different approaches based 
upon what might be taking place in different communities?
    Mr. Burns. Congressman Cummings mentioned Big Brother. The 
last thing we do at the White House is go to a city and tell 
them what they need. We go there and we ask them--because each 
city, as you know, is unique--what is the best model? And each 
one is different. And certainly in some cities it is the 
prevention entities that are leading the way; in others, it is 
treatment.
    But I have to tell you, in the vast majority, the major 
cities in this country, it has been law enforcement that has 
stepped up and brought everyone together, broken down barriers 
in some instances that have been there for a long time; and, 
for that, they have to receive credit.
    Mr. Davis. Thank you very much; and thank you, Mr. 
Chairman.
    Mr. Souder. Thank you. Thank you.
    Ms. Schofield, does the bureau--does the Office of Justice 
Assistance--have you done some of the kind of coordinated 
things that Mr. Davis asked about?
    Ms. Schofield. There are Justice Assistance under RJP, yes.
    Going back to the discussion on drug courts and adding to 
what Mr. Burns mentioned, that the original request in 2007, 
2006, is actually $70 million for drug courts. We received a 
$10 million increase, a $10 million--I am sorry--amount from 
the Congress. We have asked for $69 million this year, and that 
money actually would go toward treatment and prevention.
    Drug courts have proven to be extremely successful. We are 
in the 4th year of a 5-year intensive study. The first year 
that people have finished up on specifically with meth 
treatment, 83 percent of those people have been meth free; the 
second year of the study has shown that 72 percent of them have 
been meth free. That is a success story that we would like to 
buildupon and why we have asked for additional resources for 
drug courts.
    Mr. Souder. And I want to say for the record, first off, I 
have been willing to express my frustration. I am pleased that 
the proposed meth treatment part inside the treatment, it is 
not additional money, but it's a setaside for meth treatment 
because we didn't have enough programs, and Ms. Setacury has 
been expanding those on the treatment side. This is another 
effort by the administration to try to address that on the 
treatment side.
    The drug courts, where they are in areas where 
methamphetamine, either mom and pop, Nazi labs or the crystal 
meth, have been trying to work with it; and we're making some 
progress.
    As far as the dollars increase in treatment, it's mostly 
been in the faith-based initiative which I support but which 
Congress has been mixed on and--but it hasn't been an overall 
major increase in treatment.
    But the administration has been studying, asking more for 
drug courts than Congress has been willing to give; and that is 
a problem here in Congress. We don't like to rob Peter to pay 
Paul. But the fact is that we have to do some of those kind of 
things in the budget. And the drug court is a place that has 
been strong, it can be easily overexaggerated for its impact. 
This is tough stuff, but at least we are making measurable 
progress where people are getting drug tested and we are--you 
have, if it is an effective program where the judges are 
overlooking the individuals and holding them accountable and 
the alternative is incarceration, it tends to be a stronger 
incentive than a lot of our other types of programs. And it's 
had a measurable impact on society and deserves the funding, 
and I want to thank you for that.
    One last question, let me ask Ms. Schofield, did you 
develop the Bureau of Justice Assistance programs like drug 
courts? Have you personally had interaction with the drug 
czar's office?
    Ms. Schofield. Yes, I have, sir.
    Mr. Souder. So in each of the different programs you have 
a--you ask them what they have been learning in the field and 
how it relates?
    Ms. Schofield. Particularly in my Bureau of Justice 
Assistance we have been working with Mr. Burns personally on 
regional conferences dealing with meth, and we look forward to 
continue working with him. The first one I believe will be in 
August. We talked about it actually at the beginning of this 
session here today. OJP will be cosponsoring with us in ONDCP.
    Mr. Souder. Thank you.
    Mr. Cummings.
    Mr. Cummings. Yes. I guess about 3 or 4 hours ago a 
reporter was asking me about meth. He asked, well, do you feel 
that meth has received a lot more attention than crack cocaine, 
heroin, and cocaine? And I said I think that they have all 
received quite a bit of attention, and I want us to--you will 
find no greater advocate of making sure that we deal with the 
meth problem than you are going to find sitting right here. But 
I also want to make sure that those problems that have been 
historically problems for my district and so many urban 
districts, like crack cocaine, heroin, cocaine, that we are 
addressing those vigorously.
    The drug court, what made me think about that is when the 
chairman was talking about the drug courts we found that the 
drug courts have been extremely effective in Baltimore. But--
and so I was very pleased to hear about that. That is a good 
thing.
    But going back to you, Mr. Burns, when Mr. Davis asked you 
the question about the balance and making sure that you do 
things and make sure that everything is balanced, prevention, 
treatment and whatever, I couldn't help but think about the 
fact that--like the Baltimore-Washington HIDTA has all that 
within it, treatment, prevention and certainly the law 
enforcement piece. So I guess, well, they have that balance 
within the HIDTA itself.
    So I think that we have to keep that balance. Because I got 
to tell you, while I do--I am concerned about the supply side, 
I am very concerned about the folks who are using it and 
cutting down the demand side.
    Because I think both are important. But I don't want us to 
get lost in the process or forget that there are a lot of 
people--if you called a convention of all the former drug 
addicts in Baltimore and those who are under treatment, you 
would have a major convention.
    So that is all I wanted to say, and I wanted to thank you 
all.
    Mr. Souder. Thank you.
    Mr. Burns, I know this is kind of an odd question. That is, 
due to the fact that you are the--the official administration 
position is you would like to get rid of HIDTAs, out of the 
drug czar's office. Have you ever had a discussion that HIDTAs 
were intended to deal with drug trafficking and that is why 
they are in law enforcement? And there has been an exemption, I 
think, for two HIDTAs.
    But I have often wondered why the same model wasn't put 
together for prevention and treatment. Just like we have HIDTAs 
for drug trafficking, we don't have similar pooling at the 
State level.
    There have been efforts on drug prevention and treatment 
separate from law enforcement. Why at the Federal level haven't 
we tried to look at taking our efforts in drug free schools, in 
drug treatment under the multiple agencies there, our national 
ad campaign and look at how can we, in regional as well as 
national, do something in prevention and treatment much like we 
are doing in drug trafficking? That when we start to merge them 
sometimes we get--you have a battle for where you put which. 
But, to me, we haven't ever had this kind of concentrated local 
thing unless there is some kind of community effort like 
happened in my county where it pops up or in Cincinnati where 
it pops up.
    We have CADCA out there, community anti-drug groups that 
would be logical to merge with this, SADD, MADD, PRIDE, all the 
DARE programs, all this kind of stuff. Have you ever even had 
an internal discussion to talk about structuring that? I know 
you deal with it on an ad hoc basis. But where we would 
systemize and say, look, we are putting literally hundreds of 
millions of dollars into these things at the Federal level. Why 
don't we look at how to do a model like HIDTA?
    Mr. Burns. Well, certainly there are multi-disciplined 
approaches in States and in communities. And again, with 
additional time, Mr. Chairman, I would love to sit down and 
talk to you about it.
    Some people would say we do it now; we just don't call it 
anything, that certainly we coordinate Federal block grants and 
some moneys for treatment. There are States and communities 
that come up with moneys for prevention and education. Somebody 
sits down with the chief of police and the sheriff in that town 
and they say, we should have a group; and they get a community 
coalition grant, $100,000 a year for 5 years, and there it is. 
And that is happening across this big country we have. But we 
don't call it HIDTA or we don't call it some national treatment 
prevention effort. But it is something I would love to discuss 
with you more.
    Mr. Souder. Because they are colocated.
    One of the key things in HIDTA is they are colocated. The 
question would be, is it prevention treatment if you had a 
regional representative like, in our State of Indiana, the 
Governor's office has this, but you were colocated where you 
had somebody--not necessarily every day. It is a little 
different from drug trafficking. But you had a regional center 
where you had different major treatment people represented. You 
had CADCA community person represented. You had anybody who is 
going out and doing drug education in the schools. If a drug 
treatment grant is coming in, if the Department of Justice 
assistance grants are coming in for people coming out of 
prisons--because it does seem like a very ad hoc type of basis 
when you actually get down into the weeds, as I do; and I just 
don't believe we have had as effective a focus of coordinating 
on prevention and treatment like we have in drug trafficking.
    And I don't want to--I am the last one who wants to 
undermine law enforcement where it is, in effect, working to be 
colocated. But I believe we haven't had the same focus and I 
just wonder if that has been an internal discussion.
    Any other questions on this panel?
    Thank you very much for your patience.
    We are going to, I believe, have a vote before too long, so 
if we can get the next panel up, sworn in and see if we can get 
through opening statements.
    Thank you for coming. I know it was a wonderful, 
pleasurable experience, but it is part of the oversight 
function to try to figure out and work through our differences.
    [Witnesses sworn.]
    Mr. Souder. We appreciate you coming today, and we look 
forward to your testimony. Each of you have been involved in 
this for a long time, bring lots of law enforcement experience 
and lots of interaction in multiple agencies; and we appreciate 
the opportunity to hear from you.
    Start with Mr. Brooks.

    STATEMENTS OF RON BROOKS, PRESIDENT, NATIONAL NARCOTICS 
   OFFICERS' ASSOCIATIONS' COALITION; AND DIRECTOR, NORTHERN 
  CALIFORNIA HIDTA; TOM CARR, DIRECTOR, WASHINGTON-BALTIMORE 
  HIDTA; TOM DONAHUE, DIRECTOR, CHICAGO HIDTA; ABRAHAM AZZAM, 
 DIRECTOR, SOUTHEAST MICHIGAN HIDTA; AND JOHN BURKE, DIRECTOR, 
        SOUTHWEST OHIO REGIONAL DRUG TASK FORCE [SWORD]

                    STATEMENT OF RON BROOKS

    Mr. Brooks. Thank you, Mr. Chairman.
    The 44 State associations and more than 62,000 law 
enforcement officers I represent as president of the National 
Narcotic Officers' Associations' Coalition are grateful for the 
continuing leadership that you, Congressman Cummings and the 
Speaker of the House provide on this issue.
    As a police officer, you learn to live with risk and expect 
the danger. That is really our world. But what keeps me up at 
night is the deaths, fear, ruined lives that I've seen at the 
hands of addiction and violent crime.
    The present drug control budget takes law enforcement for 
granted. It recommends the elimination of the Byrne Justice 
Assistance Grant and the transfer of HIDTA to the Department of 
Justice.
    Mr. Chairman, you, Mr. Cummings and your colleagues have 
stood by us for years. I am asking the Congress to stand by us 
at this critical hour and not let this happen.
    Thanks to the vision of leadership provided by the U.S. 
Congress, there is good news in our fight against drug 
criminals. Significant reductions in overall drug use have been 
reported, and violent crime has fallen. But this budget 
proposes to kill the programs that have been instrumental in 
those successes.
    Drug abuse kills more than 28,000 Americans each year, and 
the impact on our economy is estimated to be $180 billion. Drug 
trafficking and abuse are the most significant and continuing 
threats to our domestic security.
    Since September 11th, no child on U.S. soil has been 
injured or killed in a foreign organized terrorist attack, but 
almost every child will be asked by friends or acquaintances to 
try dangerous illegal drugs and, unfortunately, too many will 
make the wrong choice.
    This budget request would tie the strong hand of State and 
local law enforcement behind its back, reducing support for 
multi-jurisdictional drug enforcement. HIDTA task forces are 
the lifeblood of State and local drug enforcement, which make 
up 97 percent of all drug arrests; and they have demonstrated 
clear results. In 2004, Byrne-funded task forces were 
responsible for seizing over 5,600 meth labs, 54,000 weapons 
and massive quantities of narcotics and cash assets. These 
real, quantifiable results indicate the power of using Federal 
dollars to leverage State and local investment in public 
safety.
    The administration argues that the Federal Government has 
gotten too deep into funding State and local law enforcement 
activities, but I strongly disagree that Byrne-JAG and HIDTA 
fall into this category.
    Minimal funding through Byrne-JAG leverages massive State 
and local investments in Justice programs to enhance 
cooperation, build good cases and pursue organizational 
targets. Drug trafficking is an interstate and international 
problem which calls for Federal investment. The best way for 
the Federal Government to assist State and law enforcement in 
targeting priority organizations is through multi-
jurisdictional task forces. These task forces take full 
advantage of State and local intelligence and expertise, and 
they contribute to investigations of national and international 
drug trafficking organizations.
    The NNOAC is not alone in calling on Congress to recognize 
the importance of the Byrne-JAG program. Fifteen major 
organizations representing hundreds of thousands of public 
servants across this country joined us in signing a letter 
supporting full funding for the Byrne-JAG formula program and 
retention of the HIDTA program at the Office of National Drug 
Control Policy.
    In addition to our concerns of Byrne, the NNOAC strongly 
opposes the administration's proposed transfer of the HIDTA 
program to Justice. HIDTAs are the single most effective 
collaborative partnership in the history of the criminal 
justice system. They have balanced governance and are 
administered through ONDCP, which is agency neutral. A transfer 
to Justice would lead to a disintegration of those valuable 
partnerships.
    Mr. Chairman, ONDCP is a critical institution with a 
pivotal role in national security and drug policy. But it needs 
strong leadership, and that has been lacking. I cannot 
understand how this drug czar can support recommendations by 
OMB to dismantle the most effective State and local drug 
control programs in the Nation. It reflects a lack of 
understanding of the importance of State and local law 
enforcement in the Nation's drug control strategy; and it 
allows a disturbing pattern, including ONDCP burying its head 
in the sand on the methamphetamine issue, arbitrarily defunding 
our community prevention coalitions, and most recently being 
caught flat-footed by Mexican legislation to legalize drug 
possession.
    In our experience, only Deputy Director for State and Local 
Affairs Mr. Scott Burns has reached out to key stakeholders. 
But because of that lack of meaningful consultation with drug 
enforcement by the director and his staff, Representative Terry 
offered an amendment which you supported that directed ONDCP to 
consult with law enforcement in the development of drug control 
strategies.
    Mr. Chairman, our members are truly grateful for your 
recognition of the value of our expertise on this matter. Mr. 
Chairman, we are at a critical decision point. My colleagues 
and I have served and protected the public our entire careers. 
Eighteen thousand of my brothers and sisters are now 
memorialized on a wall just down the street, including my 
partner who died in my arms after being shot by a marijuana 
trafficker and another partner whose hand I held as he died 
from complications of exposure to meth lab chemicals. We are 
united in our support for the Byrne-JAG program and the 
retention of the HIDTA at ONDCP.
    Mr. Chairman, let me just close by saying that our group 
knows that the true drug warriors in this country don't just 
wear vests or carry guns. Our partners in the fight against 
drugs have been the members of this subcommittee that have 
taken a leadership role. Our 62,000 members hold you, Mr. 
Cummings and the members of this committee in very high regard.
    Thank you.
    Mr. Souder. Thank you.
    [The prepared statement of Mr. Brooks follows:]
    [GRAPHIC] [TIFF OMITTED] 32440.028
    
    [GRAPHIC] [TIFF OMITTED] 32440.029
    
    [GRAPHIC] [TIFF OMITTED] 32440.030
    
    [GRAPHIC] [TIFF OMITTED] 32440.031
    
    [GRAPHIC] [TIFF OMITTED] 32440.032
    
    [GRAPHIC] [TIFF OMITTED] 32440.033
    
    [GRAPHIC] [TIFF OMITTED] 32440.034
    
    [GRAPHIC] [TIFF OMITTED] 32440.035
    
    [GRAPHIC] [TIFF OMITTED] 32440.036
    
    [GRAPHIC] [TIFF OMITTED] 32440.037
    
    [GRAPHIC] [TIFF OMITTED] 32440.038
    
    [GRAPHIC] [TIFF OMITTED] 32440.039
    
    Mr. Souder. Mr. Carr.

                     STATEMENT OF TOM CARR

    Mr. Carr. Chairman Souder, Ranking Member Cummings and 
distinguished members of the committee, I am honored to appear 
before you today to discuss the HIDTA Director's concerns with 
the administration's fiscal year 2007 budget proposal that 
contains what we believe to be unacceptable budget cuts for 
Byrne and Justice Assistance Grant programs and the proposed 
transfer of the HIDTA program to the Department of Justice.
    I come to you with over 35 years of law enforcement 
experience, including over 21 years of experience in drug law 
enforcement and policy development.
    Since its inception in February 1994, I have had the honor 
to serve as the Director of the Washington-Baltimore HIDTA. 
Among my many duties as a HIDTA Director I chaired the 
committee that developed the HIDTA Performance Management 
Process used nationwide in the HIDTA program today to measure 
its efficiency and its effectiveness.
    On March 10, 2005, when I testified before this committee 
about the administration's fiscal year 2006 budget proposal, 
you may recall that the Office of Management and Budget and the 
Office of National Drug Control Policy alleged that the HIDTA 
program was inefficient and ineffective. I am pleased to see 
that at least today these offices are not assailing the program 
with that flimsily supported charge.
    Mr. Souder, Mr. Cummings, Ms. Watson and members of the 
subcommittee, as you well know, the HIDTA program was one of 
the most successful government programs in existence today. My 
fellow Directors and I assert that a drug control program that 
yields a return on investment of $63 for every program dollar 
invested, seizes $10.5 billion in illicit drugs at wholesale 
value, nearly a half billion dollars in illegal drug assets or 
drug profits, dismantles and disrupts over 35 drug trafficking 
and money laundering organizations, destroys more than 4,500 
clandestine drug laboratories capable of producing a minimum of 
$31 million worth of methamphetamine, and apprehends more than 
12,000 fugitives, to mention only a few of its many 
accomplishments over a 12-month span, can hardly be thrown in 
the ash heap because it is not demonstrating results. Indeed, 
the HIDTA program should be emulated, not immolated.
    At this time, I would like to provide you a copy of the 
High Intensity Drug Trafficking Area Program 2004 Annual Report 
for the record; and I have provided that to the committee. This 
report details, as you well know, all the program's marvelous 
accomplishments for calendar year 2004.
    Our 2005 performance results will be published this summer. 
However, I can tell you in advance that the program has already 
identified over 5,000 drug trafficking organizations and 491 
money laundering organizations. Of these, 1,600 or so were 
international, 1,500 multi-State, and 2,400 were local in 
scope. We have done over 429 RPOT investigations, and we have 
referred over 1,100 DTOs to the ONDCP program. Our HIDTA 
initiatives have successfully dismantled 950 drug trafficking 
organizations and disrupted over 2,000.
    And, by the way, I thought you would be interested to know 
that Mexico is the principal source for the drugs being 
trafficked on our streets, according to our records; and, based 
upon our information, it also appears that the largest single 
ethnic group involved in DTOs is Mexican.
    Our HIDTA program was built on the premise that Federal, 
State and local agencies have an equal voice in managing the 
HIDTA--the individual HIDTAs and addressing the regional drug 
threats.
    Mr. Nash, who, by the way, I truly admire for his 
commitment and dedication to helping resolve this Nation's drug 
problems, spoke about the complications that would be resolved 
by moving the HIDTA program to the Department of Justice. I 
submit to you that these complications are in the minds of 
those vying for control of the HIDTA program, not in the minds 
of those performing the day-to-day work of coordinating 
activities, deconflicting cases, exchanging intelligence and 
information, planning activities, and ultimately dismantling 
and disrupting drug trafficking organizations.
    It appears to have taken the Department of Justice some 15 
years to recognize what, Mr. Chairman, you pointed out, that 
the HIDTA program with its emphasis on regional drug threats 
links directly to the larger national and international aspects 
of the drug trade. HIDTA's bottom-up approach to dismantling 
and disrupting drug trafficking organizations on the local, 
multi-State and international levels has proven to be a most 
effective one, as our performance indicators have shown for the 
last 2 years.
    Mr. Nash and others at the Department of Justice assert 
that by moving the HIDTA program to Department of Justice HIDTA 
would gain resources and would become a stronger program. I 
have no doubt that in many ways this is true. My question is, 
why does it have to be moved to accomplish this? There is no 
reason that every benefit Mr. Nash cited cannot be afforded the 
program now. What prevents Department of Justice from 
coordinating activities, enhancing deconfliction services, 
sharing intelligence and developing strategic plans that 
include the HIDTA program?
    Mr. Nash states that the HIDTA program would remain an 
independent, free-standing program within the Department of 
Justice. They hold that status now within the Office of 
National Drug Control Policy. However, ONDCP is viewed by 
Federal, State and local law enforcement as a neutral 
authority. By that I mean ONDCP is not the beneficiary of 
funding.
    If moved to DOJ, Justice agencies would have an upper hand 
when it comes to obtaining HIDTA funds. State and local law 
enforcement would no longer have an equal footing with our 
Federal counterparts on the HIDTA executive boards when it came 
to devising strategies and obtaining funding. This fact would 
change and actually undermine the entire HIDTA process.
    The Department of Justice plan--and I am glad to see this 
year they have a plan and have articulated one so we can at 
least gain some attempt to understand it--really contains only 
one new element. The other elements are already in place in the 
HIDTA program. That new element, however, is very disconcerting 
to us. HIDTAs have not seen a programmatic increase since 1998. 
Operating costs have steadily escalated, and our ability to 
conduct operations has already been placed in jeopardy.
    By reducing the baseline funding to HIDTAs in order to 
create a competitive discretionary fund, task forces will, by 
necessity, have to be eliminated or severely reduced in every 
HIDTA, regardless of their performance.
    The proposition was put forth that, in order to achieve 
maximum impact, HIDTAs will be encouraged to coordinate 
enforcement initiatives more closely with other department 
crime fighting initiatives, including Project Safe 
Neighborhoods, the Safe Streets Violent Gang Task Forces, and 
the OCDETF program.
    In the Washington-Baltimore HIDTA, Mr. Cummings, as you 
well know, we fund two Safe Street Task Forces. I sit on the 
Virginia Project Safe Streets Advisory Board, and Mr. Azzam 
sits on a similar project in his HIDTA. Tomorrow, my deputy 
director and program manager for intelligence are meeting with 
a regional OCDETF coordinator to assist in developing a new 
strategy for targeting for OCDETF. We are also in the process 
of procuring a gang data base compatible with that used by the 
FBI, ICE and ATF and used by everyone in our HIDTA region.
    I can't imagine how we could achieve any more impact or any 
higher level of coordination than I just described for you.
    Mr. Nash astutely mentioned barriers to sharing 
intelligence and that these would be reduced when the HIDTA 
program is moved to the Department of Justice. Again, I submit 
to you that these barriers are artificial and in the minds of 
those vying for control of the program.
    Many HIDTA intelligence analysts have Top Secret 
clearances, we have facilities approved to handle classified 
material, and, most importantly, we have been and are willing 
to continue to share any and all information with the 
Department of Justice. It is the Department of Justice that has 
often been less than forthcoming.
    Let me close by saying that, under Mr. Bagnoli's 
leadership, the Washington-Baltimore HIDTA has prospered. I 
consider him a close friend. Personally, I have every reason to 
believe that the HIDTA program would also prosper in Justice 
now that he is the Deputy Attorney General. However, it just 
does not have to be moved to Justice for this to occur.
    Mr. Chairman, members of the subcommittee, on behalf of the 
National HIDTA Directors' Association, I thank you for the 
opportunity to speak with you today; and I look forward to 
responding to any questions you may have of me.
    [The prepared statement of Mr. Carr follows:]
    [GRAPHIC] [TIFF OMITTED] 32440.040
    
    [GRAPHIC] [TIFF OMITTED] 32440.041
    
    [GRAPHIC] [TIFF OMITTED] 32440.042
    
    Mr. Souder. It was outlined in the plan at least, which was 
more than what we had before.
    Mr. Donahue. They called it a plan, but this is correct.
    Mr. Souder. Mr. Donahue, thanks for coming in.

                    STATEMENT OF TOM DONAHUE

    Mr. Donahue. Mr. Chairman, Congressman Cummings and 
Congresswoman Watson, I thank you for this opportunity to 
testify before you today. As you know, we testified on the same 
problem in March 2005. I predicted then that there would be an 
adverse impact on the Chicago HIDTA, and that has sadly come 
true. I predict that if the 2007 proposal is also passed, it 
will effect the Chicago HIDTA adversely.
    The Chicago HIDTA has ensured that law enforcement drug 
operations have consistent direction, follow policy guidelines, 
and engage in strategic planning communicated across 
organizations and jurisdictions. These sectors give law 
enforcement an advantage over criminals that would be difficult 
to achieve if working independently.
    HIDTA initiatives have been instrumental in assisting law 
enforcement agencies with accessing an all-source counterdrug 
investigative support center and source of counterdrug 
intelligence products, including a heroin offender trafficking 
base. They have also been involved in destructing distribution 
networks that supply organized street gangs in the greater 
Chicago metropolitan area. They continue to target numerous 
open air drug markets operated by street gangs in Chicago, 
especially the heroin markets of the west side, interdicting 
drug currency shipments via the highway system and governmental 
private carriers, disrupting organizations involved in 
laundering illicit money from the drug trade, and enabling the 
development of task cases against these dealers.
    They are also involved in financial analysis directed at 
seizing assets acquired through illicit drug proceeds. They are 
involved in identifying the international sources of supply of 
drug trafficking groups that operate in the Chicago area. They 
also are instrumental in case and trial support as well as 
post-case seizure analysis.
    All these activities speak to the comprehensive strategy 
that is required for intervening in drug crime. Each HIDTA has 
developed a cohesive, comprehensive program combining regional 
and locally focused initiatives to implement the national 
mission of countering that drug trade.
    The drug problem in the Chicago area has increased 
dramatically over the past years. According to the Illinois 
Department of Human Services, there is a dramatic increase in 
the number of people requesting treatment for heroin and 
cocaine abuse. The Office of Alcoholism and Substance Abuse 
noted that in 2005 there were over 38,000 admissions for heroin 
addiction and over 20,000 admissions for cocaine addiction. 
Heroin alone was a 54 percent increase from 2004.
    Since August 2005, it has been discovered that we have 
another problem in Chicago. That is fentanyl, which has been 
distributed in the heroin markets in Chicago. Fentanyl is a 
Schedule 2 substance under the Controlled Substances Act. The 
drug has shown up as pseudo heroin and also as an adulterant 
used with heroin. Fentanyl is a synthetic opioid more than 100 
times more potent than morphine or heroin. The use of this drug 
has left unsuspecting heroin abusers the victims of overdose 
and death. In the last year, there have been over 300 overdoses 
and over 40 deaths in the use of fentanyl.
    HIDTA clearly represents a model for leveraging all 
resources in order to provide comprehensive approaches for 
stopping drug crime. The joint leadership of the HIDTA 
Executive Board has been instrumental in ensuring that law 
enforcement engages in strategic planning and coordination of 
efforts to disrupt drug markets, halt the proliferation of 
criminal networks and reduce drug-related deaths. Without the 
ability to maintain the operational collaboration made possible 
by HIDTA resources, local law enforcement faces a risk of 
returning to the days when cooperation was episodic, delivered 
on a case-by-case basis, and found to be generally ineffective 
in disrupting drug trafficking. Under these circumstances, it 
will be impossible to maintain the declining crime rates and 
prevent drug-related violence from again spiraling out of 
control.
    The Chicago HIDTA has proven to have an established and 
effective Investigative Support Center. Since its inception, 
the Chicago HIDTA ISC has clearly defined the intelligence 
component for its enforcement initiatives. The Chicago HIDTA 
has lost focus due to the proposals in the 2006 budget in which 
the administration asked to move the HIDTA to ONDCP and cut its 
budget by 56 percent. As a result of that, I lost five very 
experienced analysts in my Investigative Support Center. It 
wasn't until approximately a week ago that I was able to 
replace those individuals, and I can't blame them for what they 
did because of the uncertainty of their future employment. The 
inability to provide quality work products, due to heavy 
workloads and job insecurity, has caused a great deal of stress 
and low morale in the ISC staff.
    The ISC's intelligence program has had a solid reputation 
for novel methods to support law enforcement. The momentum from 
creativity and innovation has come to a screeching halt. During 
2005, the ISC has had to turn down more than 40 local drug 
conspiracies, several Federal wiretap investigations and 
countless law enforcement inquiries. The intelligence elements 
of the following multi-agency law enforcement initiatives has 
ended or has been severely compromised due to the lack of 
experienced analysts at the Chicago ISC. They include our 
Package Interdiction Team, Domestic Highway Interdiction, the 
North Suburban Drug Units, the South Suburban Drug Units, our 
West Side Heroin Task Force, Drug-Related Violent Crimes 
Initiative and our Money Laundering and Financial Crimes 
Initiative.
    Within the last year, agency intelligence systems and 
personnel are not being offered to the ISC by Federal, State 
and local law enforcement agencies. The Chicago ISC has not 
been invited to participate with newly created intelligence 
groups such as the Illinois State Police STIC Center and 
Federal ``fusion'' centers due to the viewed lack of support in 
the HIDTA program. Agencies do not want to commit to a program 
that may not exist in the future.
    Clearly, the lack of confidence in the HIDTA program has 
undermined its purpose. Clearly, the President's 2007 budget 
would impair the HIDTA program.
    Thank you for this opportunity.
    Mr. Souder. Thank you.
    [The prepared statement of Mr. Donahue follows:]
    [GRAPHIC] [TIFF OMITTED] 32440.043
    
    [GRAPHIC] [TIFF OMITTED] 32440.044
    
    [GRAPHIC] [TIFF OMITTED] 32440.045
    
    [GRAPHIC] [TIFF OMITTED] 32440.046
    
    [GRAPHIC] [TIFF OMITTED] 32440.047
    
    [GRAPHIC] [TIFF OMITTED] 32440.048
    
    [GRAPHIC] [TIFF OMITTED] 32440.049
    
    [GRAPHIC] [TIFF OMITTED] 32440.050
    
    Mr. Souder. Next we will hear from Mr. Azzam. I always like 
to have him in here so he can say ``young man'' to me, because 
not that many people call me that any more. But those of you at 
this table here have so much more experience, and we really 
appreciate you coming.
    Mr. Azzam.

                   STATEMENT OF ABRAHAM AZZAM

    Mr. Azzam. Thank you, Mr. Chairman.
    I am Abraham Azzam, the Executive Director of the Michigan 
HIDTA. I have attached a professional biography of my law 
enforcement career and experience, and that chronicles 49 years 
of anti-drug law enforcement.
    HIDTA has been in existence since 1997. We have an annual 
budget of only three and a quarter million. We support 24 task 
forces with value-added assets. We have an Investigative 
Support Center. That Investigative Support Center provides 
deconfliction services and analytical support to the whole 
State of Michigan, and I have attached a brief description of 
the Michigan HIDTA and its daily operations. I have also 
attached a breakdown of the 383 Federal, State and local law 
enforcement members and our task forces.
    As you know, we have a 700-mile border with Canada, our 
good neighbors.
    The Michigan HIDTA has been committed to the most important 
HIDTA function; and that is simply coordinating and 
synchronizing Federal, State and local law enforcement. We have 
an animated and engaged executive board. Our HIDTA provides 
that neutral and effective environment for all our law 
enforcement community to potentate their multi-agency and 
multi-jurisdictional strengths. Our most notable HIDTA effect 
has been the creation of a mechanism for our State and local 
partners, the policemen out there, the road warriors, to 
interact and interface their valuable information with our 
Federal partners. This has proven to be very valuable in our 
anti-terrorism efforts.
    They are aware of the events of 2005 and 2006 as regard to 
budgeting. These ill-conceived proposals had an actual 
operational posture on the Michigan HIDTA. The first reaction 
was shock and disbelief that we were betrayed by our own parent 
agency. The next result was a destabilization of the HIDTA 
infrastructure, similar to Mr. Donahue's. This was internally 
and externally.
    There was no hope that we would survive until the end of 
2005. We fought hard, and we relied upon our State and local 
assets and our legislators. Our Federal partners expressed 
support of HIDTA privately. Privately, they said, we are with 
you. Publicly, they were forced to be mute on the subject; and 
that detracted from their credibility with our State and local 
partners.
    Internally, also, in spite of constant reassurance, I could 
soon detect the effects of the destabilization on our HIDTA 
staff. The loyal, dedicated people that make a HIDTA run--in my 
HIDTA at least--include a finance manager who once managed a 
credit union. She is a single mother. She has two teenage 
children. I have an IT manager who is a college graduate. He 
has triplets. I have an administrative assistant, also a 
college grad and a single mother of a teenager; and I have my 
deputy director who is a former major in the U.S. Army. He has 
been with me since we started. He and I constantly reassure and 
calm our staff, asking them to trust us and trust the Congress 
to rectify this terrible and onerous mistake by ONDCP.
    And I leave it right on ONDCP. It would have been justified 
for any of them to leave the Michigan HIDTA for more stable 
employment. I am proud to say they stayed.
    The Executive Board and law enforcement community were 
generally relieved and grateful to Congress for the relief you 
have given us in 2005.
    Now in 2006, on the first Monday of February, the 
incredible occurred. Mr. Walters and ONDCP are again proposing 
the disruption and destruction of the most effective law 
enforcement collaboration program in history. We do not 
understand how completely out of touch with reality Mr. Walters 
and his immediate staff have become. It seems as though the 
actions of Congress in 2005 just didn't happen.
    ONDCP actions regarding issues of the Performance Program, 
policy and procedures, fiduciary issues, the disregard of our 
threat assessments, their reluctance to embrace the Highway 
Interdiction Program, which has proven to be the most excellent 
anti-terrorism collective around these days, and the continued 
effort to move us out of ONDCP all seem to be aimed at 
circumventing the will of Congress and for no good reason that 
I can see.
    HIDTA's basic strength comes from the fact that it is 
neutral. It emanates from the national Office of Drug Control 
Policy, from the President of the United States. It's been an 
asset that provides comfort to all the participants, comes from 
the President's office. The U.S. Department of Justice is 
strong and professional, and they are part of our operation, 
but I fear it cannot provide the neutrality necessary to 
engender voluntary participation. The HIDTA program must be 
regionally administered, equal and neutral.
    One of the problems that I have is that the HIDTA program 
has some 52 intelligence operations which are totally, 
absolutely disregarded by Homeland Security in their effort to 
stand fusion centers. The HIDTA currently has the most 
integrated intelligence function in the country, and if they 
would recognize us and join us they could save millions.
    I will continue, sirs and madam, to continue to reassure my 
staff that their careers are secure. They are looking to me and 
to you to do the right thing. I will continue to reassure my 
law enforcement colleagues that HIDTA has a future.
    And I am available for your questions. Thank you.
    Mr. Souder. Thank you.
    [The prepared statement of Mr. Azzam follows:]
    [GRAPHIC] [TIFF OMITTED] 32440.051
    
    [GRAPHIC] [TIFF OMITTED] 32440.052
    
    [GRAPHIC] [TIFF OMITTED] 32440.053
    
    Mr. Souder. Mr. Burke, I appreciate you being our clean-up 
witness today. Good to see you again.

                    STATEMENT OF JOHN BURKE

    Mr. Burke. Thank you, Mr. Chairman and committee. I 
appreciate the opportunity to be here.
    I testified in the field hearing that you had in 
Wilmington, OH. You may remember I was born in Fort Wayne, IN.
    I am the commander of the Greater Warren County HIDTA Drug 
Task Force in southwest Ohio, an agency that has received Byrne 
memorial and JAG funding for the past several years. In 
addition. I am also the vice president of the Ohio Task Force 
Commanders Association. I represent the 36 drug task forces in 
the State of Ohio; and I am jointly in charge, along with the 
FBI, of the Southwest Ohio Drug Task Force [SWORD], initiative 
that is part of the Southern Ohio High Intensity Drug 
Trafficking Area. I have been a law enforcement officer--I 
thought--for a long time, 38 years, until I heard that he had 
been involved for 49.
    The illicit drugs in the United States continues to plague 
our jurisdictions and the good citizens that we protect. These 
drugs are brought into our communities usually from Mexico into 
our southwest border States and then transported by motor 
vehicle or shipped through a variety of commercial entities, 
including the U.S. Post Office.
    In addition, millions of licit drugs--pharmaceuticals--are 
being smuggled into the United States from Mexico and Canada or 
shipped through freight handlers when citizens procure them 
through illegal Internet sites. These drugs then feed 
addictions and/or provide a ready supply of pharmaceuticals for 
sale. Prescription drug addiction conservatively makes up 25 to 
30 percent of the overall drug problem in America and in some 
States is causing more overdose deaths than their illicit 
counterparts. One thing I saw on the news this morning was that 
a terrorist group has apparently earned millions of dollars 
through counterfeit Viagra sales.
    Our region is also fighting a significant problem with the 
clandestine production of methamphetamine. Our labs have 
tripled from 2004 to 2005, and incredible resources of both 
manpower and money are being expended in order to fight the 
production of a drug that, in my opinion, is clearly the most 
addictive on the planet. We have been able to combine resources 
with our State investigative agency, local law enforcement and 
the Drug Enforcement Administration to address this growing 
concern.
    However, as the problems of clandestine labs are handled, 
somewhat handled, the influx of ``ice'' or crystal 
methamphetamine from Mexico has already begun to infiltrate our 
region of the country.
    The Byrne Memorial/JAG Grants. The reduction in Byrne 
Memorial/JAG Grant funding in Ohio has been devastating over 
the past 2 years toward fighting the illegal drug problem. In 
calendar year 2006, we have seen a minimum of a 50 percent 
reduction in these funds available to our task forces, with 
calendar year 2007 promising at least another 50 percent cut.
    These cuts, if allowed to remain intact, will effectively 
eliminate a portion of the drug task forces in Ohio in 2007 and 
across the country and cripple many others who manage to 
continue to exist. In most cases, the region's drug task force 
is the only law enforcement agency working full time on 
prosecuting high-level drug dealers.
    These task forces work in concert with State, local and 
Federal law enforcement groups in combating the illegal drug 
trade. Local officers oftentimes provide the manpower and the 
intelligence associated with their own communities. This is an 
invaluable asset to State and Federal officers of law 
enforcement as they pursue this problem together.
    Without the full reinstatement of Byrne Memorial/JAG Grants 
to the States, the resources provided by local law enforcement 
will be greatly curtailed and in several instances eliminated 
all together.
    High Intensity Drug Trafficking Area. Southern Ohio has 
become the newest addition to HIDTAs in the United States. The 
Office of National Drug Control Policy funded program has 
already been highly effective in pursuing high-level drug 
trafficking criminal enterprises in southern Ohio.
    HIDTA funds have provided our region with the ability to 
house local, State and Federal officers within the same office 
and work together on a daily basis pursuing national and 
international drug traffickers.
    In my office, which we called SWORD, we currently house 
agents--I currently have agents from the FBI, the Drug 
Enforcement Administration, and the Ohio Bureau of Criminal 
Investigation, along with several local law enforcement 
officers and administrative staff, to conduct complex and 
sometimes lengthy drug investigations. To complement this 
effort, we also have a criminal analyst from the Ohio National 
Guard's Counter Drug Task Force to assist us in this endeavor.
    HIDTA funds provide us the ability to aggressively pursue 
criminal enterprises that oftentimes are based near or outside 
the borders of the United States, most commonly Mexico. With 
HIDTA funding, we have been able to pursue large drug 
trafficking rings, money launderers and a violent murder-for-
hire criminal coalition that yielded multiple indictments in 
the fall of 2005.
    This unprecedented cooperation between local, State and 
Federal agencies has only been accomplished because of the 
existence of the Ohio HIDTA. If funding were to be eliminated 
for this very important program, the cooperation between these 
agencies in most cases would return to the minimal levels that 
existed before HIDTA's existence. If that happens, only the 
criminal element that preys on our region will benefit.
    One last thing, the restriction on Federal forfeiture that 
does not allow enforcement to use the funds for current 
employees is in need of revision. This unnecessary restriction 
oftentimes ties the hands of local drug task forces who may 
secure large amounts of Federal forfeiture funds but cannot use 
them to support salaries of current employees. This can leave 
these task forces in the position of having ample funds for 
equipment, overtime and many other services but being totally 
unable to pay for the salary of the investigator.
    In conclusion, this enormous job requires that these 
agencies work closely together and local drug task forces 
receive ample funding for their own existence. This funding has 
been provided in the past through the Byrne Memorial/JAG 
Grants, which have dwindled to only a fraction of the levels 
provided in calendar year 2005. Restoring this funding to at 
least 2005 levels is extremely important to our drug 
enforcement efforts.
    In over 38 years in law enforcement, I have not seen a 
program that better equips local, State and Federal officers to 
combat the illegal drug trade than HIDTA. The successful joint 
law enforcement enterprise that HIDTA has given my region of 
Ohio has been invaluable as we continue to partner into more 
complex national and international drug smuggling operations 
that would have been impossible without this federally funded 
program.
    Local and State law enforcement needs the financial and 
resource assistance available from the Federal Government in 
order to combat the drug problem. Although we see the problems 
at the local level, they are the aftermath of national and 
international drug trafficking that can only be detoured 
through multiple agency cooperation, fueled by consistent and 
thoughtful funding.
    I want to thank you very much for your time.
    Mr. Souder. Thank you, Mr. Burke.
    [The prepared statement of Mr. Burke follows:]
    [GRAPHIC] [TIFF OMITTED] 32440.054
    
    [GRAPHIC] [TIFF OMITTED] 32440.055
    
    [GRAPHIC] [TIFF OMITTED] 32440.056
    
    [GRAPHIC] [TIFF OMITTED] 32440.057
    
    Mr. Souder. First, let me thank you for all the help you 
have provided to our committee over the years, and the 
subcommittee. As a business major, I think one of the first 
things you do is, when you are managing something, is you try 
to learn from your customers, from people who work for you and 
that type of thing; and especially in this case, since 
Congressman Terry worked on the floor to pass through the House 
of Representatives, basically unanimously, that they ought to 
consult at ONDCP with the HIDTA directors, with local law 
enforcement, before they make these kind of proposals. So I 
just wondered, since it would be a good management procedure 
and since clearly it was the will of Congress, how did the 
meetings go?
    Mr. Brooks. Well, it was only really three organizations 
who represent America's narcotic officers: Mine, which 
represents 62,000; the National HIDTA Directors Association, 
which represents our directors; the National Alliance of State 
Drug Enforcement Agencies, which represents the heads of each 
of the 50 State drug enforcement groups. I am in constant 
contact with the other two groups and I, of course, manage my 
own group.
    We have never had a meeting to date on the outcome of the 
HIDTA program, on whether Byrne-JAG should be funded, on the 
newly released methamphetamine synthetic drug plan, on the 
about-to-be-released southwest border drug plan, on the 
national drug control strategy, or on other issues that might 
affect us, such as what is going on in Afghanistan, the issue 
of microherbicides and how it affects the domestic supply, the 
issue of how we interact with the community anti-drug 
coalitions, the Drug-Free School Act, the National Alliance of 
Model State Drug Laws, and the list goes on and on.
    The Office of National Drug Control Policy is an absolute 
critical office if we are to ever get a handle on the drug 
problem in America. The leadership there is critical. From a 
symbolic nature, we need a Cabinet officer with direct access 
to the President and the ability to call Cabinet meetings and 
the ability to interact with each of the concerned agencies and 
the ability to interact directly with you and the Congress. We 
need that office, and the office is critical.
    I would never suggest for a minute that I think that we 
shouldn't have that office and that it shouldn't have Cabinet 
status. But I will suggest that this office has never once, 
under this administration, under the administration of Director 
Walters, has never once stepped up, has never called a 
constituent meeting, has never brought us together for 
consultation. Nor has it provided the leadership that our 
members had expected when we vigorously supported his 
confirmation in 2001.
    Mr. Souder. Mr. Donahue and Mr. Azzam both testified that 
the mere discussion about dismantling the HIDTAs had 
discouraged your staff, had resulted, in the case of Chicago, 
of a number of people leaving and coming back. Were those local 
law enforcement agencies that thought it was marginal and they 
had tight budgets? Is that it?
    Mr. Donahue. No, it was basically the Federal law 
enforcement. DEA is our biggest supporter, but once the Federal 
law enforcement agencies determined that we were going to be in 
a sinking ship, most of their resources went off to Homeland 
Security.
    Mr. Souder. Most of you had a long time in law enforcement. 
First, what was your reaction to the idea of the drug czar's 
office should be a policy shop and not minister things, that 
they should sit around and discuss things?
    And then a second comment, which is kind of a loaded 
question--I will give you a second loaded question--do you get 
the impression sometimes that, as people who been out in the 
field a long time, that this is a policy shop and they haven't 
talked to you, that it is a lot of young people sitting around 
in Washington talking about a theory and none of them have 
actually done it?
    Mr. Donahue. I think that is evident by the current 
administration and the immediate staff. There is no one in that 
capacity that has any prior experience in law enforcement.
    Mr. Souder. Mr. Azzam.
    Mr. Azzam. I haven't seen a comprehensive strategy coming 
out of ONDCP in the last 3 years. There is no strategy.
    There is one other thing about our staffs. The same thing 
is happening in Detroit as Chicago. Federal agencies are slaves 
to their organizations. And they look upon us, oh, you are 
going to Justice. The money is going away. And our State and 
local partners continually tell us in a private basis, you have 
to stay neutral, you have to stay neutral.
    This is very simple, sir. I feel like an athlete with a 
coach who won't call a play. And I am part of a team--an 
excellent team--and we are all sitting around. And those in 
ONDCP who do call plays are negated. They are put in neutral 
immediately.
    It is very difficult to--it is very difficult for all of us 
directors.
    Mr. Souder. I don't have your background, but, as I recall, 
you were DEA.
    Mr. Azzam. Yes, sir, 25 years.
    Mr. Souder. You were hostile to the Department of Justice.
    Mr. Azzam. I am not at all hostile to the Department of 
Justice. I learned my skills from the Department of Justice. I 
did 25 years with DEA. I achieved very high status with that 
organization. I was Deputy Assistant Administrator for 
International Operations for 3 years and ended my career as 
Executive Assistant to the Administrator and Deputy 
Administrator.
    And I was there when President Reagan called for his drug 
adviser, Admiral Dan Murphy of the Navy, and he came to the 
conclusion that there were some 135--or probably more now at 
the time--agencies that had something to do with the anti-drug 
effort and were totally uncoordinated. As a matter of fact, I 
was at a meeting at DEA headquarters when Admiral Murphy in 
frustration stood up and said, if I had to fight a war the way 
I am getting information from you, I would probably lose. And 
this was in like 1982. It was several years ago later that the 
Congress enacted the Anti-Drug Abuse Act and created the office 
of ONDCP.
    And the fact is that there are too many agencies out there. 
Each one is an excellent agency, as is Justice, as is Treasury, 
State Department. All of them have a mission, and they have a 
strength. It took ONDCP and the Office of the Director to 
coordinate all those efforts, to bring it together and 
eliminate the stovepiping.
    Mr. Souder. Thank you.
    Mr. Cummings.
    Mr. Cummings. Mr. Chairman, this has been a long day; and I 
will be very brief.
    First of all, I want to thank all of you for what you do. I 
have often said that it is indeed a very thin blue line, and it 
is thin. I think so often we take so much for granted, but I 
just want to take time out on behalf of all of us to thank you 
for holding on and holding out.
    One of the things that I think I love so much about HIDTA 
is the coordination and trying make sure that you pull all of 
the local, the State and Federal folk together so that you can 
use our resources effectively. It just seems to make sense to 
me.
    Mr. Azzam, you were saying a moment ago that there was a 
time when things seemed like they were really kind of separate, 
but HIDTA was able to do that. But would you say that is 
probably one of the greatest things that HIDTA does, that it 
pulls the folks together?
    Mr. Azzam. Absolutely. Coordinating and synchronizing.
    Mr. Cummings. No doubt about it?
    Mr. Azzam. No doubt in my mind, sir.
    Mr. Cummings. And, Mr. Carr, I think it was, or Mr. Brooks, 
one of you all was going down--it was you, Mr. Carr--all the 
accomplishments of HIDTA. And I guess without that coordination 
you wouldn't have been able to make that statement, would you?
    Mr. Carr. No, sir. That is what HIDTA is all about. The 
whole--I guess you could say the gimmick behind HIDTA, the game 
behind HIDTA, is getting State and local and Federal agencies, 
whether it is law enforcement, in our case, treatment and 
prevention, to come together to the same table to see their 
commonalities, to see what their common goals and objectives 
are and work together to obtain them. That is what it is all 
about.
    Mr. Cummings. Does it surprise you all that--you all heard 
the testimony a little bit earlier from ONDCP. I wanted to make 
sure, first of all, that you all were respected and that was 
clear that you are respected by ONDCP. But are you surprised 
that those folks are not sitting down with you and saying, OK, 
we are all in this boat together, we are fighting a very 
difficult enemy or enemies, and let's see how we can really sit 
down and not be talking about each other but talking to each 
other? I mean, are you all surprised by that?
    Mr. Carr. I think we all have our own opinions. I am no 
longer surprised. We are frustrated to the nth degree.
    For example, we know we have the model for sharing 
information. And yet, as Mr. Azzam pointed out, we are 
frustrated by the fact that no one is touting that model to 
Homeland Security. So we are wasting millions of dollars 
nationwide because now other departments in the government are 
going around creating another stovepipe intelligence center.
    We are frustrated because we are not included in developing 
meth strategies, when, in fact, we are the ones that developed 
those meth strategies that are being used. We are frustrated 
because we are not included in developing a strategy for the 
southwest border that is being revised, and clearly now revised 
again, because all of a sudden the National Guard is involved 
in it. So we are frustrated by all of this.
    I think that the ONDCP in many ways treats policy as 
alchemy. They don't include the partners that should be 
included, and they don't consider the timeliness of when they 
should be included. If they are going to develop a national 
drug control strategy and include input from State and locals, 
you start to do that in January and February for a document 
that is going to be published the following January. You don't 
wait until November, 2 months before it is going to be 
published.
    Mr. Donahue. Congressman, if I might to answer your 
question, nothing does surprise me. However, I am surprised 
that, within a year's time, we have turned from an ineffective 
program that should be abolished to one of the most wonderful 
law enforcement programs in the history of the United States. I 
wonder how that could be and, if it is so, why would you take 
the star away from your organization and, to coin your phrase, 
put it in the trunk?
    Mr. Cummings. Mr. Brooks.
    Mr. Brooks. Mr. Cummings, if I could also, the national 
drug control policy, the national drug control strategy--there 
was a time prior to Director Walters when they would hold 
national focus groups, bring the constituent groups together 
for robust discussions. I can remember vividly sitting together 
and working long hours to help develop that document.
    I know that both you and the chairman hold your staffs to a 
very high degree of perfection. I could tell you, if that 
document came out of either of your staffs, some heads would 
roll.
    You have both read it. It no longer provides the guidance. 
It no longer identifies the threat. It went 3 years without 
talking about methamphetamine at all, when everybody, small 
towns to big cities in America, could pick up their newspaper 
or turn on their local news and understand the threat posed by 
meth.
    There has been--you know, Director--Deputy Director Scott 
Burns has done a lot to try to coordinate with the HIDTA 
directors and has been very respectful. I just received a 
letter as the President of the National Narcotic Officers 
Coalition from Director Walters where he reminded me that I had 
helped participate in the development of the national synthetic 
drug strategy and the national drug control strategy. Well, I 
can tell you that 2 years ago I sent a letter asking him to 
please take our name off the national drug control strategy 
because not only did we not think it was an effective document 
we had never participated in writing it.
    I have never once nor has my organization been asked to 
consult since Director Walters has been there on any of the 
policy documents that have come out of the shop, despite the 
fact that it is my members that are out doing the job every 
single day on the ground. There is absolutely no coordination. 
There is an arrogance within that organization that prohibits 
them philosophically from talking to the cops that do the job 
on the street. That hasn't always been that way at ONDCP. But 
it has been that way since Director Walters got there. And it 
is truly a shame to ignore the hundreds of thousands of years 
of experience that could come from bringing our organizations 
together and discussing with the true drug warriors what is 
going on in America.
    Mr. Cummings. Just this last thing. You know, I tell my 
staff--you are talking about staff. I tell my staff we spend 5 
percent of our time figuring out the problem and figuring out 
the solution. But let's spend the rest of our time, the 95 
percent, doing the solution. And you know----
    I mean, what do you see? We had that amendment on the floor 
that said--which I thought was incredible--that said that there 
had to be consultation. I don't think you--kind of hard to 
legislate that kind of stuff, consultation between ONDCP and 
folks like you all. But what would you all like to see us do, 
if anything, with regard to this issue of collaboration? I am 
sure that is something that you consider very significant.
    And I was so glad that statements were not made earlier in 
the earlier panel that this was just a turf battle. I think 
they realize that you are very sincere about what you're trying 
to do and what you are doing. So the question is how we--what 
suggestions do you have for us to do the solution, to make it 
happen?
    Mr. Brooks. Well, if I might, the first suggestion I would 
have is to continue to do what you do. Because although this is 
probably not the way the system was designed, your committee, 
under the leadership of chairman Souder and you, Mr. Cummings, 
has become de facto the Office of National Drug Control Policy. 
It is your support on the HIDTA, on Justice funding and on a 
whole host of other things, from drug-free schools and 
community anti-drug coalitions and drug courts, that has led 
the policy discussions in America. So I think that at least the 
members of my organization, our suggestion is to thank you for 
what you do and to ask you to continue to do it as long as that 
need and that void exists.
    Mr. Cummings. Again--yes.
    Mr. Donahue. I think one of the things that has to happen 
in the next year is that the law enforcement community has to 
be assured that there is some permanency in HIDTA, that is an 
organization where collaboration is the way to go in the 
future. We need to bring people together. We don't need to push 
them away.
    I have been involved as a HIDTA director for 6 years. There 
hasn't been a marked increase in the funding in that 6-year 
time. I can tell you that costs are sky-rocketing and the drug 
problem is not going away. We need additional funding to bring 
more of these organizations into this collaborative effort.
    Mr. Cummings. Well, I hope that when you go back--and I am 
sure Mr. Souder feels the same way. The last thing we want is 
for the morale of your employees to wane. I mean, that is the 
last thing we want. And certainly one of the easiest way for 
that to happen is when people are uncertain about their jobs--
they have to survive. They have to do for their families. So I 
hope that you all will take the message back to them that we 
will continue to fight with everything that we have because we 
realize how important what you do is and what they do is to our 
Nation.
    Again, we thank all of you, we really do, for what you do.
    Mr. Souder. Thanks.
    I have a few more followup questions.
    Mr. Brooks, did they talk to your organization about the 
new border strategy that the Attorney General announced last 
week?
    Mr. Brooks. No, sir, we have never been consulted on any 
strategy or policy document since Director Walters has been 
there.
    Mr. Souder. Anybody here consulted?
    Are you aware that was a southwest border strategy focused 
with Mexico? Are you aware that they are about to unveil 
another meth strategy?
    Mr. Brooks. Yes.
    Mr. Souder. Any of you consulted on that?
    Mr. Brooks. No.
    Mr. Souder. How did you become aware that they were going 
to do it?
    Mr. Brooks. We have heard discussions from the Office of 
State and Local Affairs that this document is in process. In 
fact, in Director Walters' letter to me, he told me that I had 
in fact consulted with him, but that is not true. I have not. 
My organization has not.
    Mr. Souder. In Detroit, Mr. Azzam, when the big meth bust 
occurred there from Canada that took at that point 40 percent 
of the known precursor chemicals, was your HIDTA involved with 
that, with DEA?
    Mr. Azzam. The pseudoephedrine that was coming across 
that--DEA is an important part of our HIDTA as our--actually, 
the Canadians as well. We host the Canadians on a regular 
basis, trade information and the effect that we have--IBITS, 
ICATS, all the things that make that work well. And HIDTA was--
two or three of our task forces worked under them. One of our 
funded task forces was instrumental, out of Detroit, working 
with Chicago and the west coast and the southern border in 
eliminating that problem.
    Our operations in Detroit with DEA was also instrumental in 
working with the Canadian authorities to come up with the 
regulations which sort of stopped that.
    Mr. Souder. So even when there was something that was 
clearly national, through a HIDTA you were able to bring State 
and local.
    Mr. Azzam. Absolutely.
    Everything national and international that occurs out 
there, I guarantee you one of our HIDTAs has something to do 
with it. Our cases might begin small and become big. We make 
sure that there is a Federal agent in every task force to be 
able to carry that investigation to its ultimate, including 
OSEDEF, including whatever. We have several international cases 
out of Detroit, and I know Chicago has and the border has as 
well.
    Mr. Souder. Because you're on the international border 
directly, do you have any ICE and CBP people in your HIDTA?
    Mr. Azzam. I do. I have two ICE agents. However, we used to 
have five but, because of the turmoil, they withdrew three of 
them. We have CBP as well, and we have Canadian customs.
    Mr. Souder. Do you see some backing up of DHS from their 
commitment to the narcotics or what do you think is behind some 
of the reduction?
    Mr. Azzam. I think it is their other priorities that have 
been mandated upon them. They were gracious enough to leave two 
agents there, which means they still have a presence; and I am 
sure if they get additional personnel they will bring it back 
up.
    Mr. Souder. Mr. Brooks and the northern California HIDTA, 
clearly, we have had a number of problems with the Forest 
Service and so on. Do you have Forest Service people involved 
in your HIDTA? What would be some of the other agencies that 
would be involved there? And also, being from California on the 
southwest border, do you see CBP and ICE people there?
    Mr. Brooks. The Forest Service that we do not have is a 
direct component of our HIDTA. However, we have worked our 
marijuana team and DEA's decep teams and our State campaign 
against marijuana planting team which our intel center and 
technology center support, work very closely with the Forest 
Service, BLM, and other Federal components. We do a lot of 
major open space public land grows, some in the 70,000, 80,000, 
90,000 plant range, mostly being operated by poly drug Mexican 
national drug trafficking organizations.
    As to ICE and CBP, on the southwest border there is some 
involvement in the San Diego partnership of the southwest 
border HIDTA. We have an ICE money laundering initiative in our 
HIDTA. But, as you know, unfortunately, from the position of 
our group, not my HIDTA, we have been concerned that there has 
not been enough coordination from the DHS counternarcotic 
officer. I am hoping with the appointment of Mr. Dillon that we 
may see better coordination. But, from our organization, we 
strongly believe that the DHS will encounter narcotic 
operations, has been degrading and has declined significantly.
    Mr. Souder. And I doubt if any of you feel moving to the 
Department of Justice would strengthen that?
    Mr. Brooks. That's correct.
    Mr. Donahue. That's correct.
    Mr. Souder. And how many of you have some kind of Treasury 
presence or money laundering in your HIDTAs? How do you feel 
they would respond being under the Department of Justice?
    Mr. Azzam. They would respond as they did historically. 
They would go do their thing and leave us to our Justice 
operations, as would our State and local partners, probably, 
many of them.
    Mr. Souder. Well, that is the type of--substantive type of 
input that seems to be absent in the discussions, and I 
appreciate your willingness to come and put this on the table. 
As you heard me say earlier, I just--I can't believe that they 
not only are--that they have any--the big battle was last year. 
I mean, we had to convince the appropriators and others; and 
now it is like, ``why are you continuing to pursue this?'' That 
we have to stay vigilant with it.
    I think that we will prevail. I think the bipartisanship 
with it means that we will prevail. But it has been an 
incredibly frustrating process, particularly when you have 
something that in the anti-drug efforts this kind of thing ebbs 
and flows--and you have all seen this. We charge over and do 
drugs--not do drugs, but do anti-drug enforcement for 2 or 3 
years and then we will be off to something else and then it 
will come back up.
    In this case, everybody is begging to have more HIDTAs, and 
it is like a punishment that the more HIDTAs there are, the 
more determined they become to eliminate the HIDTAs. It is like 
a backward--I mean, politically, I don't understand it. 
Usually, when you have this much demand for a program--maybe, 
to some degree, the Department of Justice does want to steal 
it, but, at the same time, you would think that there would be 
a different attitude on funding and it would be looking at how 
to expand the program, not how to freeze and cut.
    One last thing is this has to be a relatively unique event 
in the annals of Congress and that is you all just gave pretty 
strong opinions about how you feel about the current office of 
the drug czar and about his lack of willingness to talk to you. 
At the same time, you are all asking that you stay there.
    If you want to know how bad this policy proposal is, to 
hear the frustration you all have with the agency you are in 
and yet unanimously say, look, this isn't about us or about the 
individual, this is about the structure. We are worried about 
the structure in the long term of your HIDTAs, not just about 
the individual that happens to be sitting in the director's 
office. And that ought to be an incredibly strong message to 
the Congress, to be that frustrated and yet wanting to stay in 
that division and just get it cleaned up.
    Mr. Davis, do you have any questions?
    Mr. Davis. I have one open-ended question, and I guess 
about a 1-minute answer each will put us in time to go and 
vote. And that is, perhaps beginning with you, Mr. Brooks, how 
expensive do you think it will be in--relative to keeping the 
supply of drugs down?
    Mr. Brooks. If you are talking about the supply of drugs 
coming from outside this Nation, I don't think we are being 
very effective. There is an endless supply of drugs within the 
United States, none of which comes from within the United 
States except domestic cannabis and some amount of marijuana, 
but even that is controlled with precursors from outside the 
United States. That is why drug enforcement--State and local 
drug enforcement is so critical.
    State and local officers make 97 percent of all drug 
arrests in America; and when you talk to the DEA candidly they 
will tell that you that the other 3 percent that they are 
responsible for came as part of a cooperative effort from leads 
provided to them in task force settings like the HIDTA or Byrne 
task forces, from State and local law enforcement.
    Mr. Davis. Mr. Carr.
    Mr. Carr. I can say this much, that our program seized 
$10.5 billion--and that is a conservative estimate--in 2004, 
which tells me that the national estimates that we have been 
suffering with for I don't know how many years have been off. 
If our program seized that much, our national estimates have 
been off; and I think a policy shop like ONDCP should be 
responsible for giving us solid drug estimates. That is one--
another area, I think, they have really been amiss on. They 
have fallen short of doing that.
    Have we been successful? I think we have been successful. I 
think it is something that is hard to measure, hard to get your 
arms around. However, I hate to think of how bad a position we 
would be in if we hadn't been doing as well as we have been 
doing. How bad would the streets be then? How bad would the 
meth problem be if it hadn't been for programs such as ours and 
hard work and dedication of law enforcement and prevention and 
treatment folks?
    Mr. Davis. Mr. Donahue.
    Mr. Donahue. Congressman, without the HIDTA in Chicago we 
would be lost. I can tell you that over the last 5 years the 
amounts of assets and drugs that are seized has gone up 
dramatically. It's tripled since 2000. And the reason is 
because of the strengthening relationships between the State, 
Federal and local agencies. The only thing that has kind of 
been a bump in the road has been the proposals that have come 
out of the administration that have kind of taken the footing 
away from HIDTA.
    Mr. Azzam. Sir, I look to what we did with methamphetamine 
labs in Michigan, and I think back to the question that 
Congressman Watson asked. We had a situation in Michigan 7 
years ago where sheriffs were pointing fingers at the State 
police, and the State police were pointing at the Feds. You 
take care of our meth problem.
    HIDTA came in, brought them together and, again, 
coordinating, synchronizing, put together a very effective 
operation. We haven't conquered it, but last year we had 183 
labs, and I think that is 10 or 12 or 25 less than the year 
before. So we haven't won, but we have kept it somewhat in a 
reasonable fashion.
    It reminds me of that lawn of mine at home. I have to cut 
it every week whether I want to or not, sir.
    Mr. Davis. Mr. Burke.
    Mr. Burke. My 30-some years in law enforcement the one 
thing I have found is that measuring prevention is probably the 
most difficult thing you can do. And I have to agree with 
whoever said it. I think that--is there a substantial amount of 
drugs in our region? Absolutely. We have 20-year-olds that are 
selling kilos of cocaine, being able to buy $20,000 worth and 
sell these. Tells me that the supply is plentiful, again, from 
Mexico.
    I think that we are making some significant progress in 
some of the cases we have done; and these drug operations, 
cartels that we have been able to dismantle I think have been 
highly effective. I think, as someone else said, I don't know 
what would have happened had we not done that. So I guess the 
answer is, yes, I think it is working; and I would hate to see 
what the outcome would be if we were not doing this.
    Mr. Davis. Thank you gentlemen very much.
    Thank you, Mr. Chairman.
    Mr. Souder. Thank you.
    Have any of the others of you other than Mr. Donahue seen 
fentanyl? The heroin? The fentanyl? You have seen it in Detroit 
as well?
    Mr. Azzam. We had a terrible situation this weekend. We had 
12 overdose deaths of heroin and fentanyl in the Detroit area 
in 24 hours, and I believe since then we have had eight more. 
It is a terrible thing. Since I think September, October, we 
have had about 120 deaths.
    It is a major operation going on back there as we speak in 
that regard. CDC came in from Atlanta on Monday to examine the 
situation. The Drug Enforcement Administration has been on it 
since last fall. We put out public notices to be careful; and 
we suspect that it, as Mr. Donahue points out, that they 
haven't figured out that this fentanyl is a terribly killing 
drug.
    Mr. Souder. My staff notes it is what the Russian special 
forces use against Chechnyan terrorists--fentanyl.
    Mr. Donahue. That's correct. It was found in Philadelphia, 
too.
    Mr. Souder. Because a few years ago we had this rash of 
heroin overdoses in Dallas and in a few other places, and we 
will followup to try to get some more specific data.
    Once again, let me thank you all for your leadership. I am 
very frustrated by this intelligence stovepiping even within 
the narcotics area.
    But, Mr. Azzam, particularly in the Detroit area, the one 
model we have that is great is New York City because they were 
forced to deal with it and there you see the HIDTA integrated 
with the Homeland Security. And the fact is that in the Detroit 
metropolitan area as well as in the Buffalo area we have huge 
Arab American populations, and it spills down into my district 
in northeastern Indiana, most of whom are hard-working, 
dedicated Americans, but they are communities in which to hide. 
And if there is anyplace we ought to be looking at how to 
integrate the intelligence agencies that we have and the 
movement, it is a lot on the north border right now; and it is 
just incredible to me that, even though they have the New York 
City model, it hasn't been something that is looked at across 
the board.
    I don't want to diminish the narcotics by getting it too 
entangled in the homeland security, but it is a real challenge.
    Mr. Azzam. Mr. Chairman, I am a strong proponent that if 
you are doing a good job of anti-drug war you are going to do 
an excellent job of anti-terrorism work. I believe I mentioned 
that at the hearings you had in Detroit a couple of years ago.
    The important thing is that the HIDTA program, because of 
its nature, coordinating, synchronizing, has made itself 
available through all its resources to both the city of Detroit 
Department of Emergency Management fusion center as well as the 
one that the State is putting up.
    As a matter of fact, Thursday we are having some meetings 
because our executive board has said this HIDTA will 
participate with you. And we haven't waited for any 
instructions from Washington. None of my colleagues have, 
either. We have just come forward and said our ISCs are 
available and we will work well with your fusion centers on 
anti-terrorism work as well as anti-drug work.
    Mr. Souder. We are having--in the Homeland Security, we are 
having a problem in each division of Homeland Security wants to 
have its own stovepipe operation. We are having enough problem 
inside it, let alone getting together with you guys.
    But thank you for bringing these things to our attention. 
Thank you for your commitment. Please relay back, as Mr. 
Cummings said, to all the people working in your agencies how 
much we appreciate their efforts.
    With that, the subcommittee stands adjourned.
    [Whereupon, at 4:58 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
